<html>
<title> - BUILDING BACK BETTER: INVESTING IN TRANSPORTATION WHILE ADDRESSING CLIMATE CHANGE, IMPROVING EQUITY, AND FOSTERING ECONOMIC GROWTH AND INNOVATION</title>
<body><pre>[Senate Hearing 117-6]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 117-6

  BUILDING BACK BETTER: INVESTING IN TRANSPORTATION WHILE ADDRESSING 
  CLIMATE CHANGE, IMPROVING EQUITY, AND FOSTERING ECONOMIC GROWTH AND 
                               INNOVATION

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 24, 2021

                               __________

  Printed for the use of the Committee on Environment and Public Works
  
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  


        Available via the World Wide Web: http://www.govinfo.gov
        
                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-094 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------
        
        
        
        
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                  THOMAS R. CARPER, Delaware, Chairman
BENJAMIN L. CARDIN, Maryland         SHELLEY MOORE CAPITO, West 
BERNARD SANDERS, Vermont                 Virginia, 
SHELDON WHITEHOUSE, Rhode Island         Ranking Member
JEFF MERKLEY, Oregon                 JAMES M. INHOFE, Oklahoma
EDWARD J. MARKEY, Massachusetts      KEVIN CRAMER, North Dakota
TAMMY DUCKWORTH, Illinois            CYNTHIA M. LUMMIS, Wyoming
DEBBIE STABENOW, Michigan            RICHARD SHELBY, Alabama
MARK KELLY, Arizona                  JOHN BOOZMAN, Arkansas
ALEX PADILLA, California             ROGER WICKER, Mississippi
                                     DAN SULLIVAN, Alaska
                                     JONI ERNST, Iowa
                                     LINDSEY O. GRAHAM, South Carolina

             Mary Frances Repko, Democratic Staff Director
               Adam Tomlinson, Republican Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page

                           FEBRUARY 24, 2021
                           OPENING STATEMENTS

Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     1
Capito, Hon. Shelley Moore, U.S. Senator from the State of West 
  Virginia.......................................................     4

                               WITNESSES

Whitmer, Hon. Gretchen, Governor, State of Michigan..............     9
    Prepared statement...........................................    12
    Response to an additional question from Senator Carper.......    18
    Responses to additional questions from Senator Whitehouse....    19
    Response to an additional question from Senator Inhofe.......    22
    Responses to additional questions from Senator Lummis........    23
Hogan, Hon. Lawrence J., Jr., Governor, State of Maryland........    25
    Prepared statement...........................................    27
    Response to an additional question from Senator Carper.......    32
    Responses to additional questions from:
        Senator Whitehouse.......................................    33
        Senator Lummis...........................................    36
Hancock, Hon. Michael B., Mayor, City and County of Denver, 
  Colorado.......................................................    38
    Prepared statement...........................................    40
    Response to an additional question from:
        Senator Carper...........................................    55
        Senator Cardin...........................................    56
    Responses to additional questions from:
        Senator Whitehouse.......................................    57
        Senator Lummis...........................................    58
Sheehan, Hon. Victoria, Commissioner, New Hampshire Department of 
  Transportation; President, American Association of State 
  Highway and Transportation Officials...........................    61
    Prepared statement...........................................    63
    Response to an additional question from Senator Carper.......    71
    Responses to additional questions from Senator Whitehouse....    72
    Response to an additional question from Senator Inhofe.......    74
    Responses to additional questions from:
        Senator Lummis...........................................    76
        Senator Shelby...........................................    77
        Senator Sullivan.........................................    82

                          ADDITIONAL MATERIAL

We can come together for smart infrastructure, the Washington 
  Times, February 24, 2021.......................................    90
Letter to Senator Charles Schumer et al. from the National 
  Association of Truck Stop Operators et al., February 24, 2021..    92
Letter to Senators Carper and Capito from:
    The Advocates for Highway and Auto Safety, February 23, 2021.   121
    The Consumer Technology Association, February 23, 2021.......   127
    Associated Builders and Contractors, February 24, 2021.......   129
    The Diesel Technology Forum, February 23, 2021...............   131
    The Truck Safety Coalition, February 23, 2021................   135
    The Intelligent Transportation Society of America, February 
      24, 2021...................................................   138
    The National Marine Manufacturers Association, February 24, 
      2021.......................................................   140
    The National Stone, Sand and Gravel Association, February 24, 
      2021.......................................................   144
    The Portland Cement Association, February 25, 2021...........   146
    The SmarterSafer Coalition, February 23, 2021................   148
Letter to Senators Carper and John Barrasso from Clean 
  Transportation Technologies and Solutions, March 2, 2021.......   152
Statement from:..................................................
    The American Trucking Associations, February 24, 2021........   157
    The American Society of Civil Engineers, February 24, 2021...   162
    The Design-Build Institute of America, February 24, 2021.....   167
    The Conference of Minority Transportation Officials, February 
      24, 2021...................................................   170
40 Proposed U.S. Transportation and Water Infrastructure Projects 
  of Major Economic Significance, AECOM et al., Fall 2016........   174

 
  BUILDING BACK BETTER: INVESTING IN TRANSPORTATION WHILE ADDRESSING 
  CLIMATE CHANGE, IMPROVING EQUITY, AND FOSTERING ECONOMIC GROWTH AND 
                               INNOVATION

                              ----------                              


                      WEDNESDAY, FEBRUARY 24, 2021

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee, met, pursuant to notice, at 10:18 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Thomas R. Carper 
(Chairman of the Committee) presiding.
    Present: Senators Carper, Capito, Cardin, Sanders, 
Whitehouse, Merkley, Markey, Duckworth, Stabenow, Kelly, 
Padilla, Inhofe, Cramer, Lummis, Boozman, Sullivan, Ernst, 
Graham, and Rounds.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Good morning, everyone.
    I want to call this hearing to order.
    We are delighted to be joined today virtually by a 
noteworthy panel of witnesses to discuss with us surface 
transportation infrastructure: Governor Whitmer, Governor 
Hogan, Mayor Hancock, and Commissioner Sheehan. We want to 
welcome each of them to the Senate Committee on Environment and 
Public Works' first policy hearing of the 117th Congress.
    Here in Washington today, as I walked up from the train 
station, Union Station to the Capitol, I couldn't help but 
notice that the sun has come out. The weather forecast is 60 
degrees, thank you, God, after a week of brutal winter storms. 
But despite the sun and the blue skies that greeted us this 
morning, our country still faces some major hurdles, as we all 
know.
    While our economy is starting to show signs of life, close 
to 15 million people in the United States remain unemployed, 
and roughly half of them have given up looking for a job.
    Across Texas, families are struggling to recover, as we 
know, from a catastrophic ice storm, with over 8 million 
people--8 million people--still without safe drinking water, 
the latest tragedy in the increasingly frequent extreme weather 
and climate events of recent years.
    This comes on the heels of last year's raging wildfires in 
California and Colorado the size of my State, hurricane force 
winds in Iowa that flattened a third of that State's crops last 
year.
    Get this, this is what John Neely Kennedy told me 
yesterday. He said every 100 minutes, Louisiana loses a 
football field of land to rising sea levels. Every 100 minutes. 
If that happened in Delaware, we would be gone in about a year, 
but they are disappearing in Louisiana, as well.
    Scientists tell us that if climate change is left 
unchecked, these disasters are not going to get better; they 
will just get worse. A raging pandemic, as well, we face a 
raging pandemic. Millions of jobless Americans. A growing 
climate crisis that demands bold action.
    The question is, what do we do about it? What do we do 
about it? Well, there is some good news. That is, as it turns 
out, smart investments in our transportation infrastructure 
will enable us to tackle all three of these challenges.
    We can improve the conditions of our roads, highways, and 
bridges in ways that create millions of good paying jobs, lift 
up our communities, build a more sustainable economy, and 
improve our air quality for a healthier, more prosperous future 
for all of us.
    The American people are counting on us to make this happen. 
They don't want to hear us talking about what needs to be done. 
They want us to work together and get it done.
    As we gather today, less than half of our Federal aid 
highways and bridges are in good condition. Much of our 
infrastructure is significantly outdated. It was built for 
different ranges of temperatures, rainfall, and sea levels. In 
the last 10 years, we have put nearly $19 billion in emergency 
funds in addition to what we have already provided from the 
Highway Trust Fund.
    Poor road conditions and design flaws create safety 
challenges, too. Motor vehicle crashes are one of the top 
causes of unintentional lethal injuries in the United States.
    Pedestrians and bicyclists face particularly grave 
challenges as roads are too often designed without a safe place 
to bike or even cross the street. In the last decade, we have 
seen a 44 percent increase in pedestrian fatalities on our 
roads. Think about that: A 44 percent increase in just one 
decade.
    The burdens of poor road conditions are disproportionately 
shouldered by marginalized communities. Low income families and 
peoples of color are frequently left behind or left out by our 
investments in infrastructure, blocking their access to jobs 
and educational opportunities.
    So, there is a clear need for modernized transportation 
infrastructure that is safer and more sustainable while better 
ensuring that we treat other people the way we want to be 
treated. Fortunately, our Committee has a roadmap that will 
enable us to meet these needs and more.
    Last Congress, as many will recall, our Committee 
unanimously reported a bipartisan reauthorization bill that 
outlined an historic investment in our Nation's surface 
transportation programs. Unfortunately, the full Senate never 
acted on it. But now, we have an opportunity to build on that 
promise and actually enact a bill that transforms our 
transportation sector into one that is more innovative, more 
resilient, and safer, while creating good paying jobs, lots of 
them.
    Let me briefly touch on some of the key policy priorities 
for our next reauthorization bill that will help make that 
vision a reality. Auto manufacturers are preparing to greatly 
expand their lines of electric and hydrogen fueled vehicles, 
but too often, drivers lack access to the charging and fueling 
stations that these vehicles require.
    America needs to build corridors of charging stations and 
hydrogen fueling stations across the country. We also have to 
make it easier for people to walk safely, bike, or take public 
transit, so driving isn't the only way to get where we need to 
go.
    We need to strengthen our infrastructure so that it can 
withstand the devastating effects of extreme weather and 
climate change, which we are witnessing with alarming 
frequency. Last year alone, natural disasters fueled by climate 
change cost us over $95 billion in economic damage. Smart 
planning to make our infrastructure more resilient will save 
American taxpayers dollars while helping us avoid rebuilding 
the same infrastructure projects again and again after severe 
weather events.
    As we work with State and local partners, there must be 
accountability to ensure that Federal funds are invested in 
well designed projects that expand equity and lift up our 
Nation as a whole.
    Now, the most challenging part of any discussion on 
transportation infrastructure: How are we going to pay for it?
    When I was new in the Senate, the guy who sat behind me was 
Ted Kennedy. I didn't know him very well, and one day, I 
suggested maybe we have a cup of coffee. He actually invited me 
to his hideaway for lunch, which was quite a thrill. I asked 
him there, during lunch, I said, ``Why do all these Republicans 
want you to be their lead cosponsor on their big bills? Why is 
that? You are such a big, liberal Democrat from Massachusetts. 
Why is that?''
    I will never forget what he said. He said, ``I am always 
willing to compromise on policy; never willing to compromise on 
principle.'' That is what he said. Always willing to compromise 
on policy; never willing to compromise on principle.
    Well, let's talk a little bit about some of the principles 
I hope we ought to be able to agree on in this regard. For one, 
much of our transportation infrastructure is in sorry shape. 
Unfortunately, a lot of it is getting worse, not better. This 
is not something the Federal Government should do alone. This 
is an all hands on deck moment.
    The second principle that I think most of us can agree on 
is that things worth having are worth paying for. We can't just 
continue to put all of our improvements that are needed on our 
country's credit card.
    I would suggest that a third principle should be that those 
of us who use our Nation's roads, highways, and bridges have a 
responsibility to help pay for them. Now, with principles like 
that, what I hope we will do is develop a bunch of policies 
that are consistent with those principles.
    A growing number of people believe that a national vehicle 
miles traveled approach will eventually fund much of our 
transportation infrastructure in the not too distant future.
    Mary Barra announced that General Motors, as Senator 
Stabenow knows--what is it, by 2035, they will not be building 
any more vehicles, cars, trucks, or vans powered by gasoline or 
diesel. That was a wake up call, wasn't it?
    The reauthorization bill this Committee adopted unanimously 
in the last Congress called for a national VMT pilot for all 50 
States. It was a good idea then; it is an even better idea now.
    If vehicle miles traveled turns out to be a big part of the 
future of transportation funding, we are going to need a 
bridge, or likely, several bridges, to get us to that future 
for the next decade or so. For that, we are going to be looking 
to the Finance Committee for help; some of us serve on that 
Finance Committee, for help in funding the next 5 year 
reauthorization, and the Senate Committees on Banking and 
Commerce have major roles to play, too.
    In closing, I am going to say last Congress, EPW led by 
example, something that we learned in the Navy, didn't we, 
Mark? We unanimously approved our bill to improve and expand 
our surface transportation programs, and we did it 14 months 
before the last 5 year surface transportation reauthorization 
bill expired. That was one, I think, authored by Senator 
Inhofe, if I am not mistaken.
    It is imperative, however, that this year, our sister 
committees join us now to begin the critical work that needs to 
be done and to help get it across the finish line and signed 
into law long before this fiscal year ends.
    Senator Capito and I, along with our staffs, are already 
getting to work. Last week, we invited all of our Senate 
colleagues, not just on this Committee, but all Senate 
colleagues, Democrat, Republican, Independent, to share with us 
their States' policy priorities, transportation policy 
priorities with us so we can begin drafting legislation not 
this summer, but this spring. Our goal is to mark up our bill 
and report it out of our Committee no later than Memorial Day.
    I don't want to get our bill there alone without having 
some company from the Banking Committee and also from the 
Commerce Committee. They have to do their part as well, and 
then Finance.
    The conversation we are about to have today in this hearing 
is critical to that effort. The stakes are high, and a lot of 
people across the country are counting on us to do our jobs in 
order to better ensure that they will have the kind of jobs 
that will enable them to support their own families far into 
the future.
    Before we hear from our distinguished panel of witnesses, 
we are going to have some introductions. Before we hear those 
introductions, Senator Capito is going to be recognized, our 
Ranking Member, for her opening remarks.
    Let me just say what a joy it has been serving with you on 
this new partnership, and we look forward to doing great work 
for our States and for our country.

        OPENING STATEMENT OF HON. SHELLEY MOORE CAPITO, 
          U.S. SENATOR FROM THE STATE OF WEST VIRGINIA

    Senator Capito. Thank you.
    Thank you, and I share the sentiment, Chairman Carper. We 
have a great thing going here, communication-wise. I thank your 
leadership and your partnership for today's hearing to kick off 
this process, which I think is important to every member, and I 
think we all tune into what we are going to do on a surface 
transportation bill.
    I would also like to thank our witnesses, who are going to 
be with us remotely today. We look forward to hearing your 
perspectives on surface transportation policy and other issues 
of infrastructure importance to your State.
    Mr. Chairman, I enjoy our regular conversations on the bill 
and other important matters before the Committee, and I enjoyed 
your opening statement, particularly talking about, since I 
serve on Commerce as well, I am in a good position to gig our 
chairman there, and the other committees that need to be so 
important.
    I was really encouraged by the conversation that we had 
last week, or I guess 2 weeks ago now, with President Biden, 
Vice President Harris, and Secretary Buttigieg on the 
importance of what we are talking about today. I think the 
meeting signified a commitment by the Administration to see 
that this bill becomes a reality, as this is one of my top 
priorities as our Ranking Member.
    It is also about more than just building our 
infrastructure. This bill can facilitate a recovery from the 
pandemic that has devastated our communities and wreaked havoc 
on our communities and our economy. Transportation 
infrastructure is the platform that can drive economic growth, 
all American jobs, right there, right on the ground, now and in 
the future, and improve the quality of life for everyone, on 
the safety aspects which you so well addressed.
    I am optimistic we can deliver that bill before the current 
extension expires on September 30th, and I noted your 
commitment to Memorial Day is a good marker.
    Our Committee has a strong track record of developing these 
bills in a bipartisan manner. Our former Chair can attest to 
that. We passed an excellent bill out of Committee, 21 to 
nothing, in 2019, that represented bipartisan consensus on 
issues such as climate change and expediting project delivery.
    We can come together, and once again, use this bipartisan 
process to develop a bill that includes priorities from both 
parties. I know such a process is what you want as well, Mr. 
Chairman.
    From my perspective, a surface transportation 
reauthorization bill must, No. 1, provide long term investment 
in our Nation's roads and bridges in a fiscally responsible 
manner without partisan or lightning rod pay fors, of course, 
that would be over in the Finance Committee, that could sink a 
bill.
    The last thing we want to do is have a bill getting out of 
here that doesn't go anywhere. We experienced that last time; 
we don't want to experience that again.
    We want to give flexibility to our States, and I think our 
panelists will give us a good idea of that, to address unique 
transportation needs. We want to keep the Federal interest 
focused on providing a connected network of roads and bridges 
to assure that all communities and the economy can thrive.
    We want to facilitate the efficient delivery of projects, 
perennial issues, so that we can improve safety and resiliency 
of our surface transportation system, and we want to drive 
innovation. I think that is critical to help pave the way for 
the system of the future.
    As we will hear from our witnesses today, certainty of 
funding, consistency of regulations, and flexibility in 
tailoring investments to suit the diverse needs of State, 
rural, and urban communities is essential. In West Virginia, 
for instance, we need additional highway capacity and bridge 
improvements to improve safety and increase our efficiencies.
    Corridor H, which goes through the middle of our State, has 
been one of my biggest West Virginia transportation priorities. 
I have been working on this throughout my time in Congress. It 
is the last piece of the Appalachian Development Highway System 
needed to better connect West Virginia for interstate and 
intrastate traffic.
    Our job is to provide a policy and programmatic framework 
that recognizes the different transportation needs across the 
country while balancing important national goals.
    We also need to efficiently deliver projects that improve 
our roads and bridges. With an average of 7 years to complete 
an environmental impact statement for a highway project, surely 
everyone can agree that this process should be reviewed and 
improved upon.
    We know time is money. The longer the time, the more money 
it costs, and the less likelihood that it actually gets 
complete.
    We also know to look at other issues that can impact the 
delivery of projects and create a better process to move 
forward from concept to completion. For example, removing 
impediments to constructing reliable high speed broadband 
across the country in concert with our road projects. We cannot 
afford to delay the benefits to States and communities that 
come from these projects.
    We should be forward leaning in tackling the transportation 
needs not just of today, but those needs of tomorrow. Driving 
innovation will be critical to supporting the surface 
transportation system of the future. It will also aid our 
efforts to reinvest in our existing system. That includes 
cutting edge technologies, like the Virgin Hyperloop, which 
will be tested and certified in Tucker and Grant Counties in 
West Virginia.
    I am committed to working on these issues that are 
important to my friends on the other side of the aisle, and I 
know they are willing to do the same. There is a lot of common 
ground from both of our sides. We share the same goal: Getting 
a bill across the finish line that delivers on addressing the 
transportation needs of our entire Nation.
    I will add, I hesitate to do this, because we have got a 
lot of good feeling going here, but to temper my optimism--
should I stop now?
    Senator Carper. Your time has expired.
    [Laughter.]
    Senator Carper. No, go ahead.
    Senator Capito. I temper my optimism with a word of 
caution, particularly, when I read this morning the words from 
the Budget chair in the Senate on the direction this bill may 
go. The strong bipartisan support that exists for a surface 
transportation reauthorization bill and other infrastructure 
legislation should not extend to a multi-trillion dollar 
package that is stocked full with other ideologically driven 
one size fits all policies that ties the hands of our States 
and our communities. I look forward to being a partner and 
advancing infrastructure legislation in a bipartisan way.
    Thank you very much, and I look forward to hearing the 
testimony.
    Thank you.
    Senator Carper. Senator Capito, thank you very much for all 
of your statement. All of it.
    Before we turn to our witnesses to hear from them, we are 
fortunate to have a panel of public officials who have all 
wrestled with the challenges of transportation at the State and 
local levels. I am privileged to know several of them, but not 
all of them.
    We are going to hear their testimony in a moment, but let's 
just start with a few brief introductions. I am going to begin 
by recognizing Senator Stabenow to introduce our first witness 
from her State, her home State, the great State of Michigan.
    Senator Stabenow, we are delighted that you are a member of 
this Committee. Delighted.
    Senator Stabenow. Well, thank you so much, Chairman Carper 
and Ranking Member Capito. I have great confidence in both of 
your leaderships, and I am looking forward to really important 
work in a number of areas, particularly around surface 
transportation reauthorization.
    Thank you for bringing together this distinguished panel to 
offer their collective insights and perspectives on how to 
address our Nation's pressing transportation needs.
    I first have to say that I want to thank Governor Whitmer 
for her outstanding leadership in addressing the COVID 
pandemic, as well as, I know, Governor Hogan. I can't imagine 
more difficult decisions than the ones that you have had to 
make, certainly in Michigan, to keep people safe and save 
lives, so thank you. I know, again, Governor Hogan has had the 
same challenges.
    I am very pleased that Governor Whitmer could join us today 
to speak about investing in infrastructure and what it means to 
the State of Michigan and to the Midwest and to our country, 
and frankly, our future. You have her bio in front on you, but 
I would like to add a few additional comments.
    Governor Whitmer was elected in 2018 in part because of her 
promise to fix Michigan's aging infrastructure systems. Since 
being elected Governor, she put forward bold proposals to 
address the condition of Michigan's roads and bridges. She 
launched the Rebuilding Michigan Program to rebuild the State 
highways and bridges that are critical to our local economy and 
carry the most traffic.
    So I look forward today to hearing her thoughts and ideas 
on how we are addressing climate change through infrastructure 
that is creating good paying jobs and leading us to a more 
sustainable future. I welcome Governor Gretchen Whitmer from 
the great State of Michigan.
    Senator Carper. Thank you, Senator Stabenow, and welcome, 
Governor Whitmer. I know you are out there, and we welcome you 
to our hearing today. We are honored to have you here.
    I will now recognize my friend, Senator Ben Cardin, for 
another special introduction of my neighboring State's 
Governor, Governor Hogan.
    Ben, please proceed.
    Senator Cardin. Thank you, Mr. Chairman. It really is a 
pleasure to welcome Governor Larry Hogan to our Committee.
    Let me just assure our guests that are coming to us 
virtually that we are in a committee room that is complying 
with the CDC guidelines. We are distanced apart. But Governor 
Hogan, I am following your advice, and I am wearing the damn 
mask.
    [Laughter.]
    Senator Cardin. For those of you who have seen the 
commercial that he has used, it is been, I think, very 
effective. I just really want to thank Governor Hogan and 
Governor Whitmer for being very clear from the beginning about 
the seriousness of COVID-19. The advice that you gave our 
citizens clearly saved lives.
    So first, thank you for the leadership that you have shown 
during this pandemic. We all appreciate it. We are very much 
trying to work in partnership.
    Governor Hogan was first elected in 2014 as the Governor of 
Maryland. As I think most of you know, he became the head of 
the National Governors Association. In that capacity, he worked 
with us in regard to the passage of the CARES Act, and in 
regard to the passage of the December COVID Relief Package. 
Thank you very much for your work in that regard.
    We have Team Maryland. Our congressional delegation works 
very closely with our Governor on the needs of our State. We 
couldn't have, I think, a more important witness to talk about 
the transportation needs.
    Maryland set up many years ago a consolidated trust fund, 
so that we can share the resources in any mode of 
transportation and use it to be able to advance the 
transportation needs of our State. It gives us much more 
flexibility.
    But I know Governor Hogan will share with us the tremendous 
needs that we have in the State of Maryland, and we need a more 
robust Federal partnership.
    Yes, Senator Capito, I could talk about the Appalachia 
Highway Program. We need to complete that, and we need 
resources for that. I could talk about the Bay Bridge and the 
eastern part of our State.
    But when we look at our urban centers, we have desperate 
equity needs. We need to advance our transit in the Baltimore 
area. It is absolutely essential. We have the WMATA system in 
the Washington area, the Purple Line. We have the concerns in 
Southern Maryland as far as transit is concerned in regard to 
rail. Very appreciative that we got an INFRA grant that allows 
us to move forward with the Howard Street Tunnel, which is 
critically important for freight traffic on the East Coast of 
the United States.
    But we have passenger rail needs for high speed rail in 
order to deal with the gridlocks that we have in our community. 
Yes, we have bridges that need to be replaced, we have roads 
that need to be done, we have the I-270 issue.
    So there are so many issues in our State that we need a 
more robust Federal partnership so that we can deal with the 
issues Chairman Carper has mentioned, and that is the equities 
and the climate change and those issues, in a way that can be a 
win-win situation that we modernize our transportation needs, 
and we can also deal with our equity and environmental issues. 
I am pleased that Governor Hogan is here to share his wisdom on 
those issues with our Committee.
    Senator Carper. Thank you, Senator Cardin. I just want to 
say, Senator Cardin and I like baseball, and so does Senator 
Stabenow and maybe some other folks on this panel. Every now 
and then, Ben will take me with him to see an Orioles game. I 
am a huge Detroit Tigers fan, and I have a baseball signed by 
Al Kaline, Mr. Tiger, who grew up and played sandlot baseball 
where?
    Senator Cardin. Baltimore City.
    Senator Carper. Baltimore. He won the American Batting 
Championship at the age of 21, and he passed away last year. A 
great human being.
    Senator Cardin. Are you going to give me that one?
    Senator Carper. I have several of these; I could probably 
do that.
    In any event, I brought my Detroit Tigers hat, and I would 
just say, and my Al Kaline baseball, from where Al Kaline 
started in the sandlots of Baltimore.
    That is a little bit of a history lesson that involves all 
of us, but one that I think is maybe worth mentioning at least 
briefly here today.
    I take my hat off to our panel today, and again, Governor 
Hogan, our neighbor across the water, welcome to this hearing.
    We have two other esteemed witnesses on our panel today, 
Mayor Michael Hancock, who is joining us from Denver, Colorado, 
the mayor of Denver since 2011, a decade.
    Thank you, Mayor, for taking time out of your busy schedule 
to join us.
    We are also fortunate to have Victoria Sheehan, not 
Shaheen, we have a Senator named Shaheen, but Commissioner of 
New Hampshire.
    I wonder if people get that confused, Ben. I bet they 
probably do, up in New Hampshire.
    Anyway, Commissioner, we are delighted you are here to 
testify with us virtually. Currently the President of the 
American Association of State Highway and Transportation 
Officials. So I can tell my wife tonight that we actually heard 
from the President, which you don't really hear from every day.
    Our thanks to all of you for joining us. Thanks for your 
preparation. Thanks for joining us virtually.
    Governor Whitmer, we are going to start with you. You may 
proceed when you are ready. Thanks so much.
    Thank you all. Welcome, one and all.
    Governor Whitmer.

              STATEMENT OF HON. GRETCHEN WHITMER, 
                  GOVERNOR, STATE OF MICHIGAN

    Ms. Whitmer. Thank you, Mr. Chairman, and go, Tigers.
    I am glad to be with you and Ranking Member Capito and 
members of the Committee. Thank you for inviting me to testify 
before your first hearing of the 117th Congress.
    I also want to thank Michigan's own Senator, Debbie 
Stabenow, for the kind introduction.
    I am honored to appear before you today to discuss how 
investing in transportation and leading on climate change are 
pathways to economic growth in Michigan and across the country.
    I want to talk about what is possible if we work together 
to address the big challenges head on. I am glad to be here 
with my friend, Larry Hogan, who you quoted as saying, ``Wear 
the damn mask.'' Well, before that, I was known for running on 
and getting elected to ``fix the damn roads'' in Michigan. I 
have to say that we need significant investments in our roads 
and bridges.
    Since taking office, my administration has been focused on 
taking action to build and to rebuild a better Michigan. Our 
focus on infrastructure has not waned during the COVID-19 
pandemic. I will work with anyone who wants to build up our 
roads and bridges, including our Federal partners. We welcome 
it, because without significant investments in infrastructure, 
my State and our Nation will struggle to remain competitive.
    A total of 43 percent of Michigan's major roads are in poor 
or mediocre condition, and approximately a thousand local 
bridges are in poor or critical condition. Driving on 
deteriorated roads and bridges costs Michiganders $4.67 billion 
annually. That is $659 per motorist. Damaged infrastructure in 
any area affects personal mobility, affects our safety, and it 
slows our economic recovery. We have a big opportunity in front 
of us.
    At the start of my term, I proposed spending $2.5 billion 
to fix Michigan's roads, but we could not reach a consensus in 
Lansing. Doing nothing was not an option, so I implemented Plan 
B, and that is a $3.5 billion bonding program called Rebuilding 
Michigan to restore our State trunklines. This year, I proposed 
$300 million in my budget to begin tackling our backlog of 
closed or critical condition bridges.
    The pandemic has had a devastating impact on our 
transportation revenues, and we desperately need Federal 
assistance. Doing nothing shouldn't be an option at the Federal 
level, either, and I am heartened by the opening comments of 
today's hearing. We need long term, sustainable, Federal 
sources for our infrastructure.
    I hope the Committee considers the stakes of the moment 
that we are in as it drafts the transportation reauthorization 
bill this year. But we also need a plan that goes beyond just 
roads. We need a national vision when it comes to 
transportation, much like the interstate highway system offered 
65 years ago. To build a more equitable economy and tackle 
climate change, we need your help, your leadership.
    For too long, there is been a misconception that preparing 
for the future comes at the expense of economic growth and good 
paying jobs today, but it is not a binary choice. It is not an 
either-or; it is really a both-and. The health of our economy 
is inextricably linked to the health of our people and our 
planet.
    Whether it is a global pandemic or natural disasters caused 
by climate change, we have seen first hand how failing to 
invest in environmental protection and public health can 
devastate our country. In the industrial States like Michigan, 
we have lost jobs to automation and modernization.
    In the past, big changes created winners and losers, and 
the government didn't get involved until after the fact. This 
time, we have got to put workers and communities first, and 
ensure that people who are threatened by change are able to 
benefit from it.
    Electrification will create jobs, and Michigan is leading 
in this space. Since I was sworn in in 2019, we have announced 
over 11,400 new auto jobs, and more on the way. We have 
committed to being carbon neutral by 2050, a goal that is 
aggressive and means that we are going to have to work together 
to achieve it. We have incredible assets, like the American 
Center for Mobility, and a 40 mile driverless lane from Detroit 
to Ann Arbor that Senator Stabenow was a part of announcing.
    There are great jobs that can be created by new mobility 
technologies as well, but it is going to require a new set of 
skills, and that is something where I think we can partner as 
well.
    Michigan has earned several names or expressions over the 
years. We are the State that put the world on wheels, the 
birthplace of Motown, the arsenal of democracy during World War 
II. In the next century, Michigan is going to be the arsenal of 
ideas and innovation.
    At the national level, we have to invest in resilient 
infrastructure, emerging industries, and transportation. We 
need policies that will uplift communities that are 
disproportionately impacted by the transition, address 
environmental justice, and tackle climate change.
    We can't shrink away from the crises that we face. We have 
to go big and be bold, so let's get to work.
    I thank you so much for having me today, and I am really 
looking forward to your questions, and of course, hearing from 
my fellow witnesses. Glad to be with you.
    [The prepared statement of Ms. Whitmer follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Governor Whitmer, thanks for your 
testimony.
    Senator Barrasso, who used to sit, actually, used to sit 
right here as the Chairman until very, very recently; he and I 
love music. Every now and then, we have quips about music. I am 
trying to think of a Motown song that might be appropriate for 
us as we get ready to get started. I don't know it was the 
Temptations or the Four Tops, but Get Your Motor Runnin', Head 
Out on the Highway, Get Ready, Here We Come, one of those two 
probably works. So, get ready, here we come.
    Thank you, Governor, and thank you also for sending us Gary 
Peters and Debbie Stabenow, two of our best.
    Again, Governor Hogan, thanks for joining us this morning. 
You may proceed with your testimony. Thanks, Governor.

           STATEMENT OF HON. LAWRENCE J. HOGAN, JR., 
                  GOVERNOR, STATE OF MARYLAND

    Mr. Hogan. Well, good morning, Chairman Carper, Ranking 
Member Capito, my Team Maryland member, Senator Cardin, thank 
you, and members of the Committee. Thanks for having me.
    It is also really good to be with my colleague and friend, 
Governor Whitmer, this morning.
    As chairman of the National Governors Association, pre-
COVID, I launched a national infrastructure initiative, which 
was focused on repairing and modernizing America's 
infrastructure in ways that will drive long term economic 
growth while addressing short term recovery needs. It would 
encourage innovation and efficient approaches to delivering 
projects that build the transportation networks of the future.
    For this national initiative, we brought together thought 
leaders from all levels of government, from business and labor 
and academia to get their input. We held a series of 
stakeholder summits across the country and around the world to 
tackle an issue that is so fundamental to our economy, our 
environment, and our way of life.
    We released a final report with a series of 
recommendations, including a number related to the 
reauthorization of a long term Federal surface transportation 
bill. The National Governors Association recommends that States 
should be granted maximum flexibility to relieve congestion and 
to invest in adaptable and innovative solutions with more 
reliability and certainty of formula funding.
    To reduce program burdens and improve project delivery, we 
recommend that the One Federal Decision policy should be 
codified for highway projects, to establish a 2 year goal for 
completion of environmental reviews and a 90 day timeline for 
related project authorizations.
    We recommend that Congress make investments in resiliency 
and security to allow us to harness the full potential of 
financing and leveraging private sector investment, which has 
been critical to our success here in the State of Maryland, 
where we have taken a balanced approach, an all inclusive 
approach to infrastructure.
    We are moving forward on nearly all of the highest priority 
transportation projects in every jurisdiction all across our 
State, and investing far more in roads and transit than any 
other administration in Maryland history.
    We have over 800 projects, totaling $9 billion, in roads, 
bridges, and tunnels currently under construction. We have 
improved more than 85 percent of our entire State highway 
system, invested $150 million in innovative traffic congestion 
solutions, smart technology, and cutting edge smart 
signalization networks.
    We advanced the Purple Line from Prince George's County to 
Montgomery County in the Washington Capital region, which is a 
partnership between the Federal, State, and local governments 
and the private sector. It is the largest P3 transit project 
under construction in North America.
    Just last week, we announced the procurement of a developer 
for the largest P3 highway project in the world to relieve 
traffic congestion on I-270 and I-495, the Capital Beltway, and 
to finally build a new American Legion Bridge across the 
Potomac River. My fellow Governors all across America have 
similar success stories to share.
    In States throughout the Nation, they are upgrading roads, 
bridges, and mass transit; they are improving airports and 
ports, fixing aging water systems, and expanding rural and 
urban broadband. Investing in infrastructure is more important 
than ever as we work to bring the pandemic to an end and to get 
more people back to work and to build a sustainable economic 
recovery.
    As I said recently to President Biden when I was with him 
in the Oval Office, the Governors urge that any major 
infrastructure effort be bipartisan. Democrats and Republicans, 
business and labor leaders, all of us believe that 
infrastructure should be a top national priority.
    Governors on both sides of the aisle have shown that there 
are more than enough good, common sense ideas where we can find 
bipartisan support.
    We stand ready to work with you in this effort. Together we 
can rebuild America's infrastructure so that it will once again 
serve as an example for the rest of the world. We hope that 
this hearing will serve as a springboard for real progress.
    I want to thank you, Mr. Chairman and members of the 
Committee, for giving me the opportunity to be here with you 
today.
    [The prepared statement of Mr. Hogan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Governor Hogan, thanks so much. Thank you 
for your leadership in the National Governors Association. As a 
former Governor, former NGA Chair myself, we value very much 
the NGA and look forward to partnering with the NGA. You could 
probably play a key role in that, and we look forward to that.
    Mr. Hogan. Thank you, Chairman.
    Senator Carper. You bet.
    Next, we are going to stay with the baseball theme, on the 
on deck circle, is Mayor Hancock from Denver. It is one of the 
positions I always thought would be fun to have, but maybe yes, 
maybe no. We will see.
    Mayor Hancock, welcome today, and you are recognized. 
Please proceed.

             STATEMENT OF HON. MICHAEL B. HANCOCK, 
           MAYOR, CITY AND COUNTY OF DENVER, COLORADO

    Mr. Hancock. Thank you, Mr. Chairman, to the Ranking 
Member, and Committee members. It is an honor to be here with 
you.
    First, let me thank you as well for your leadership and for 
acting on COVID-19 relief in the last Congress. I speak on 
behalf of all local governments. We thank you for your 
tremendous leadership and support. I am honored to be here with 
Governors Whitmer and Hogan and with Secretary Sheehan.
    Now as we address the new Congress, the first thing I want 
to share is that we hope and encourage you to act on the 
American Rescue Plan to deliver much needed fiscal relief to 
cities and counties across this country. We have been the first 
responders to this pandemic, our first line of defense for the 
majority of our citizens in this great country. But we need 
your continued help and support, and we thank you for what you 
have done in the past, and we are encouraged by what we hope 
you will do in the future.
    Mr. Chairman, let me recognize your personal efforts on our 
behalf, as well. It is not been lost on us that you have 
advocated for direct funding to cities and counties throughout 
this country, and we are greatly appreciative of your efforts.
    As a former Governor, you know all about State and local 
finance. We thank you for talking to your colleagues about the 
challenges we face.
    Now, as we look to build back better, it is about reviving 
our economy at every level and doing it in ways that confront 
the key challenges before us.
    Mr. Chairman, you mentioned just recently in this hearing 
about what Motown song might be appropriate for this moment. It 
got me to thinking as a music fan myself, that the song Ain't 
No Mountain High Enough by Marvin Gaye and Tammi Terrell might 
be appropriate for this theme of building back better. Local 
governments have recognized there ain't no mountain too high 
for us, for our residents, to make sure that their quality of 
life is sustained, and that we provide safe passage on our 
roadways.
    Investing in transportation and other infrastructure we 
recognize is the cornerstone of that effort. Let me speak to 
the surface transportation specifically, because FAST Act 
reauthorization is before you this year.
    The structure of the FAST Act is sound. It is built on the 
foundation of the ISTEA that this Committee set 30 years ago, 
and the law can be adapted to confront the challenges we are 
discussing today: Climate, equity, economic recovery, and 
innovation. It can advance recovery in local areas where people 
and small businesses have been most harmed by this pandemic.
    My written testimony addresses these challenges in more 
detail, but I want to share this message with you all today. We 
ask you to rely on your local leaders. Invest in us, and again, 
there has been no mountain too high for us as we work to 
address the challenges facing our citizens. We ask you to lean 
on us, to challenge us, to lead us out of this pandemic and 
help recover our economy.
    My recommendation is simply this, and I recognize that this 
is a pebble in the pond that is going to send a ripple effect 
and might be contrary to what some of the previous testimony 
has been, but we believe that one, you need to use the Surface 
Transportation Block Grant to accomplish this. Two, we ask you 
to direct all these flexible resources to local areas, to metro 
areas like Denver, and to smaller areas, working through the 
States. This expanding commitment means using local leaders to 
address key priorities in areas where most people live and 
work, and by investing more in metropolitan areas, cities, and 
counties, where most of our economic output is generated.
    Today, I offer this division of labor: Keep States focused 
on intercity and interstate corridors with resources from the 
National Highway Performance Program; and two, use the Surface 
Transportation Block Grant to local areas to lift the economy 
for the local level up and accelerate progress on the key 
priorities before us.
    Increasing STBG funds to local areas, we believe, is the 
best way to deal with conditions on the ground during a 
pandemic, and after. It is also the best way to move the needle 
on key priorities before us and put us on the track for 
transitioning from rescue to recovery. It is efficient; it 
means we can address equity and climate much more prudently on 
the local level.
    Mr. Chairman, this is a seminal moment for Federal 
transportation policy and for broad infrastructure policy. 
Mayors will be prepared to support this Committee as we learn 
more about the direction you take on a broader infrastructure 
recovery package. Mayors and other local leaders are ready, 
willing, and more than capable of delivering for the future.
    Thank you for this opportunity to join you today, and we 
look forward to the testimony and your Q and A session.
    [The prepared statement of Mr. Hancock follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Mayor Hancock, Senator Stabenow and I heard 
it through the grapevine that you were a big Marvin Gaye fan. I 
guess you are.
    Mayors are going to play a big role in this legislation as 
we go forward, and we welcome your participation, but also 
mayors across the country, just as we welcome the involvement 
of our Governors.
    Next, the fourth witness today on our panel is Victoria 
Sheehan.
    Commissioner Sheehan, thank you for joining us, and please 
proceed with your statement.

STATEMENT OF HON. VICTORIA SHEEHAN, COMMISSIONER, NEW HAMPSHIRE 
 DEPARTMENT OF TRANSPORTATION; PRESIDENT, AMERICAN ASSOCIATION 
         OF STATE HIGHWAY AND TRANSPORTATION OFFICIALS

    Ms. Sheehan. Good morning, Chairman Carper, Ranking Member 
Capito, and members of the Committee. Thank you for this 
opportunity to appear today and speak to the critical need for 
timely reauthorization of the Federal surface transportation 
legislation.
    My name is Victoria Sheehan, and I serve as the 
Commissioner of the New Hampshire Department of Transportation, 
and as President of the American Association of State Highway 
and Transportation Officials, or AASHTO. Today, it is my honor 
to testify on behalf of the Granite State and AASHTO, which 
represents the State Departments of Transportation in all 50 
States, Washington DC, and Puerto Rico.
    First, allow me to express on behalf of all the State DOTs 
our gratitude for your leadership on the $10 billion in COVID-
19 relief provided last December. We also thank you for your 
firm commitment to getting the Federal surface transportation 
bill done on time, as well as possibly providing infrastructure 
funding as part of a future economic stimulus and recovery 
package.
    This morning, I would like to begin by discussing why 
timely reauthorization of the Federal surface transportation 
programs is so important. New Hampshire, as a small, rural 
State, relies heavily on Federal funds to make infrastructure 
improvements. Any delay, or even worse, a series of short term 
extensions, would wreak havoc across the country and would 
impact not just State DOTs, but our partners, which are local 
governments and the construction industry.
    Further, a stable Federal surface transportation program 
has become even more crucial as States like my own continue to 
deal with the loss of State revenue with the impacts of the 
pandemic.
    Here in New Hampshire, we use Federal funds to complete 
projects across the State, projects such as the reconstruction 
of Route 16 in rural communities like Cambridge, Gorham, and 
Errol, and to make safety improvements like the intersection of 
Routes 16 and 41 in Ossipee, New Hampshire.
    We also invest in large scale projects in more urban areas 
using the Federal program and the funding tools it provides to 
ensure that major projects are not advanced at the expense of 
smaller projects in less populated regions of the State. As an 
example, to complete the reconstruction of Interstate 93 from 
Salem to Manchester, New Hampshire secured a TIFIA loan. This 
loan has allowed the Granite State to pledge State revenues to 
rural paving and bridgework, and stretch the value of the State 
gas tax increase, that otherwise would have funded only this 
one, large scale project.
    Now, I would like to talk about how transportation 
investment can serve as a key economic stimulus to drive a 
recovery nationwide. A well performing transportation network 
allows American families to benefit both as consumers for lower 
priced goods and as workers by gaining better access to 
employment. It also allows businesses to manage inventories and 
move goods more affordably while ensuring employees can 
reliably get to and from work.
    As Congress considers providing additional financial 
support to stimulate the economy and to recover from the 
effects of the COVID-19 pandemic, AASHTO asks you to provide 
funding through existing highway and transit formulas, that 
they provide funding in the quickest, most efficient manner, 
understood by our State DOTs, and provide funding to every 
State and locality. It is also important that Congress not 
attach unrealistic timelines related to the obligation of 
economic recovery funding, nor should such funding come with 
additional Federal requirements that delay obligation and 
expenditure of funds.
    Last, as you consider surface reauthorization policies, 
know that AASHTO strongly supported the bipartisan process this 
Committee used in the last Congress to develop the America's 
Surface Transportation Infrastructure Act. Based on that 
foundation of partnership, we believe the next bill's core 
policy principles should look at the following: First and 
foremost, like I said earlier, timely reauthorization of long 
term build. A long term sustainable revenue solution to the 
Highway Trust Fund, increased and prioritized formula based 
funding to States, increased flexibility, reduced program 
burdens, and improved project delivery and support to ensure 
State DOTs are able to harness innovation and technology.
    Meanwhile, our State DOTs will continue addressing ongoing 
and emerging policy issues, such as performance and asset 
management, infrastructure resiliency, equity, carbon 
reduction, as well as broadband and other technology deployment 
in our highway right of way.
    To conclude, this week hundreds of State DOT leaders from 
all corners are gathering virtually at AASHTO's 2021 Washington 
briefing. While we won't be able to visit with you in person as 
we normally do, AASHTO and the State DOTs will continue 
advocating for strong Federal-State partnership to address our 
surface transportation investment needs.
    Thank you again for the honor of being here today and the 
opportunity to testify. I am happy to answer any questions.
    [The prepared statement of Ms. Sheehan follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Commissioner Sheehan, thank you very much 
for your testimony, and to all of our witnesses here today. It 
is hard to think of a better panel to begin consideration of 
our surface transportation bill than this panel.
    I want to start off, I am going to just run through quickly 
the names of those who have shown up in person or virtually, In 
this order, myself, followed by Senator Capito, Senator Cardin, 
Senator Inhofe, Senator Sanders, Senator Cramer, Senator 
Whitehouse, Senator Lummis, Senator Stabenow, Senator Kelly, 
and Senator Padilla. All right, that is about nine people.
    Let me just start off with a quick question for Governor 
Hogan.
    Governor Hogan, as you know, the Northeast Corridor runs 
from down by rail, down and around Washington, DC, all the way 
up to Boston. There is a stretch between Aberdeen, Maryland, 
and Newark, Delaware, where it goes from three rails to two. 
There has been talk for a long time about adding a third rail 
between Aberdeen and Newark, Delaware, that is probably about 6 
or 7 miles.
    Is this a project that you have ever heard discussed in 
Maryland? Is this something that people of Maryland might be 
willing to collaborate with Delaware and the USDOT on?
    Mr. Hogan. Senator, I know that our Department of 
Transportation has had discussions, and we certainly look 
forward to continuing to talk with you about that possibility. 
I think those bottlenecks where, we have gone through this in 
Maryland, we are moving forward on the Howard Street Tunnel, 
where we moved from where we could only do single stack trains 
and it was a real bottleneck, I think, in a similar way. If you 
have multiple lanes going up multiple tracks going into a fewer 
number of tracks, it causes congestion. We think it is probably 
something that we would love to work with you on.
    Senator Carper. All right. Thanks so much.
    Question, if I could, for Governor Whitmer.
    Governor, reducing transportation emissions is a top 
priority for reauthorization. The good news is that the world 
is moving toward zero emission vehicles. A decade ago, the 
number of electric vehicles on the roads in the United States 
could be counted in the hundreds. Today, we are approaching 2 
million, and it seems that a week doesn't go by that automakers 
don't announce an increase in ambition.
    I mentioned General Motors' announcement that come, what, 
2035, they will not be building any more gasoline or diesel 
powered vehicles, but the Ford Motor Company apparently has 
recently announced that all of the cars that they sell in 
Europe will be electric by, I think, by 2030.
    Yet the market forecasts predict that the EV share of new 
car sales in the U.S. will lag in comparison with Europe and 
China. I am concerned that if the U.S. lags on EV policy, 
investments in manufacturing will flow to other parts of the 
world.
    My question, Governor Whitmer, is how do we ensure that 
U.S. consumers are purchasing zero emission vehicles, and what 
are the perils of ceding our leadership here to other nations?
    Ms. Whitmer. Thank you, Mr. Chairman. I appreciate the 
question, and at the risk of taking this Motown question too 
far, I think Dancing in the Streets by Martha Reeves and the 
Vandellas might be the right song for this undertaking, 
hopefully. That means we are successful in it.
    I think you are asking a very important, thoughtful 
question. As we are trying to transition our economy and our 
consumption, address climate change, and our work force needs 
as well, and do it equitably, this is an important part of the 
conversation.
    In Michigan, our economy is inextricably linked to the auto 
industry. The future of our mobility and our decarbonization 
goals all need to be woven together, so that we can tackle 
emissions.
    We have to invest in and push for bold electric vehicle 
policy as a pathway to economic opportunity for our country and 
a way to address climate change. These are linked; you can't 
pull them apart. It is not if-or; it is both-and.
    We are heavily focused on building a statewide connected 
charging network in Michigan. We are working to help 
communities and businesses transition their fleets and ensuring 
that we have got tools to attract and retain electric vehicle 
employers and to reskill our work force. All of these are 
important pieces of it.
    I would like to highlight just one quick thing. My State's 
Office of Future Mobility and Electrification, one of our 
efforts is called Flip Your Fleet. It is a $3 million program 
aimed toward small businesses and school districts that we 
proposed in the Mobility Futures Initiative in my fiscal year 
2022 budget.
    So, thinking creatively about how do we incentivize this 
transition, how do we upscale our work force so that we are 
prepared? How do we build up the infrastructure across the 
State so that when you buy your EV that is American made, that 
you are able to utilize it and have confidence in that?
    So these are all important pieces to incentivizing this 
investment in this American transition that I think we are 
going to need to partner at the Federal level, at the State 
level, at the local level, as the Mayor was speaking to. I 
think these are all aspects of being successful doing that.
    Senator Carper. Governor, it is encouraging to hear you 
tell us of the leading role that the State of Michigan is 
playing toward beginning to create this corridor of charging 
stations and fueling stations.
    Senator Kelly is a retired Navy captain, a pilot, 
astronaut, and he knows we have a saying in the Navy, all hands 
on deck. When it comes to creating these corridors of charging 
stations and fueling stations, it really is all hands on deck. 
It is just not all on the Federal Government; it is not all on 
the State and local governments; it is not all on State 
Departments of Transportation. It is not all on the convenience 
stores of the world, the Wawas, it is a burden that we all 
carry, but it is an opportunity that we all share.
    All right, thanks. Thank you, Governor, and next, we will 
turn to my colleague.
    Senator Capito. Thank you all.
    Thank you, Mr. Chairman.
    My first question is to Governor Hogan, our neighbor to the 
north of West Virginia. Your western part of Maryland is, we 
often say, is just West Virginia again, or maybe you would say 
maybe our part of our State is Western Maryland, but we are 
very much tied to one another. I know that is where you have 
your Appalachian Development Highway System that Senator Cardin 
talked about. We have been working together.
    My question, really, is aimed at, because you have talked 
about the congestion in Baltimore. You have massive 
transportation challenges in your more populated area, but then 
as you move to Western Maryland, you have the rural areas. What 
do you see in terms of being able to meet the transportation, 
that we need to put in this bill to make sure that you, as the 
Governor, have the ability to meet the transportation needs of 
both your rural and urban areas?
    I do want to thank you for mentioning the One Federal 
Decision. We thought that was a very good part of the last bill 
that we passed, and we hope to incorporate it into this one.
    So Governor Hogan, could you talk about the rural-urban 
flexibilities that you may need?
    Mr. Hogan. Sure. Thank you very much, Senator. It is great 
to have you as a neighbor.
    I think you are absolutely right. I think the flexibility 
is something that I think we agree on, that the States need to 
have that ability to be flexible.
    But it is also really important that we balance, that we 
address issues in both our rural and our urban and suburban 
communities. That is what I mentioned earlier, what we have 
tried to do in a very balanced plan by moving forward on every 
priority project in every one of our jurisdictions, from 
Western Maryland to the Eastern Shore.
    We have done some really big projects in the urban areas, 
but some really important projects in all of our rural areas, 
as well.
    I think it is critical that we come up with a certainty of 
a funding formula that gives us flexibility on surface 
transportation dollars, rather than some prescriptive regs 
regarding exactly how we have to use. I think new discretionary 
grant programs that could be awarded through other entities.
    But we look forward to working with you. There is no 
question we have to find a balance, and going back to my 
comments earlier about getting a bipartisan bill, I think if we 
want to get everybody on board, we have got to address the 
transportation and infrastructure needs of all the States and 
all the communities across the country.
    Senator Capito. Let me just, as a point of clarification 
here, in terms of the formula funding that is built into all of 
these bills that, as we have moved along the 5 or 6 year 
increments, we have, from time to time, earmarked certain parts 
of that formula for certain, specific types of projects, like 
transportation enhancement projects, and others.
    Is basically what you are saying, don't take away from the 
formula money where you have the greatest flexibility as the 
Governor to create new discretionary programs that might take 
from your ability to be able to make those decisions at the 
State, local, and municipal level?
    Mr. Hogan. That is exactly right, Senator. We agree with 
that, and it is hard with the discretionary funding, it is hard 
to make long term planning decisions. Transportation projects 
happen over a long number of years, and for us, to really plan 
for all the improvements we want to make, to have some type of 
certainty is better, having flexibility to do what we want. But 
a reliability and a certainty of the funding formula is 
something that the Governors would prefer.
    Senator Capito. Thank you.
    Commissioner Sheehan, you mentioned in your statement about 
the failure to act. If we fail to act, what consequences, or if 
we do another short term, could you expound on that a little 
bit on our failure to get to a lengthy bill, a very robust, 
lengthy bill, as opposed to kicking the can down the road for 
another year? What impact does that have on you as a State 
commissioner, and all States?
    Ms. Sheehan. Thank you for that question, Senator. As 
transportation professionals, we work closely with communities 
to understand what their transportation needs are, and then we 
set forth and develop either 5 year or 10 year transportation 
plans.
    You make some assumptions around what Federal funding will 
be available. In the case of New Hampshire, for our 10 year 
plan, we assumed level Federal funding into the future. That is 
so that we can prepare the projects and have them ready to 
access dollars when you make them available.
    Any interaction in the Federal program means that we lose 
an entire construction season potentially, if we are dealing 
with short term extensions and having to really meter the 
projects that we advertise and move into construction.
    It is very concerning for the State DOT that directly 
impacts State and local governments, as well as all of the 
contractors and vendors that we do business with. They are 
staffing up and preparing to bid on all of the work that they 
see us advancing through our advertising programs. When we 
don't have the financial resources, it is devastating to those 
sectors of our economy as well.
    Senator Capito. All right, thank you.
    Thank you, Mr. Chair.
    Senator Carper. Thank you, Senator Capito.
    Senator Cardin.
    Senator Cardin. Thank you, Mr. Chairman. Let me thank all 
of our witnesses for their presentation.
    I want to follow up on Senator Capito's point dealing with 
the topic of our hearing, building back better, investing in 
transportation, fostering economic growth.
    So, if I could, Governor Hogan, start first about your 
thoughts about how we can tailor this transportation program to 
deal with challenges in our urban center.
    I specifically mentioned Baltimore City. I am aware of one 
major transportation request we have in for Baltimore City in 
regard to the I-95 exit for Port Covington. But it seems to me 
that, in many respects, it is more challenging to use public-
private partnerships in urban centers. For a city like 
Baltimore that really doesn't have a rapid rail transit system 
and has two lines, but not a system, transit development has 
become more challenging.
    So, as we look at reauthorizing a transportation program, 
do you have thoughts as to how we can make it more attractive 
for transportation to assist economic growth in cities like 
Baltimore?
    Mr. Hogan. Thank you, Senator. Yes, I do think that we have 
to focus on looking at every mode of transportation. I am a big 
believer in a balanced transportation system. We have invested 
$14 billion in transit in both the Baltimore and Washington 
region, and we re-did the entire bus system in Baltimore, 
hundreds of millions of dollars. We run the transportation 
system for Baltimore City.
    There is no question that, I mentioned earlier that we did 
a P3 on the Purple Line and the Washington suburbs. You could 
do the same thing in Baltimore. But the previous plan was just 
one line that didn't really provide any kind of a system. But 
you have to make it attractive to the private sector. We would 
have to have the flexibility of funding.
    But we have invested money to save the Washington Metro 
System, to build the Purple Line, and to re-do the transit 
system in Baltimore. But there is no question that as we try to 
come out of this pandemic, and we head into economic recovery, 
particularly in some of our urban areas, investment in 
infrastructure can help us create more jobs.
    Just on the road project in Metropolitan Washington, on the 
Capital Beltway and fixing the bridge, that is going to provide 
11,000 jobs for every billion dollars invested in that project, 
and it is going to be about a $10 billion project.
    So there is no question that this is going to be a big part 
of our economic recovery, and it is why we have got a number of 
labor groups that are just as excited as some of the business 
entities and the State and local governments.
    Senator Cardin. There is no question we have an aggressive 
program for the Washington area dealing with both transit and 
roads. I find Baltimore has challenges that have not yet been 
met. So I would just welcome your thoughts as we go through the 
process as to what incentives we can put into a transportation 
reauthorization that makes it easier for urban centers 
themselves, not necessarily suburban areas, but the centers 
themselves to be able to attract economic growth.
    Mayor Hancock, I would like to ask you a question, 
following up on Senator Capito. I am the author of the 
Transportation Alternative Program. It gives flexibility on the 
use of transportation funds for local government units, so that 
they can deal with their needs and have some ability to deal 
with paths, bike paths, bike safety, tourism type 
transportation needs, et cetera.
    Can you just tell me, how important is it for a mayor of a 
major city to have some flexibility on the use of 
transportation money coming from the Federal Government and not 
have to solely rely upon the allocation and partnership with 
the State?
    Mr. Hancock. Senator, your questioning is so on target with 
what most mayors across this country are dealing with and are 
asking for with regard to our plan, from the U.S. Conference of 
Mayors to the U.S. Congress and to the Biden administration.
    Local governments have the ability to be much more nimble 
with their ability to address the challenges facing their 
residents. Here is the reality: 80 percent of all the roads 
that we as citizens travel on, are sitting in front of our 
homes. They are sitting in front of our small businesses. It is 
the road that we use to get to work every day.
    Yet, we are only seeing a small portion of the resources 
that are coming to our States to, particularly, our metro-urban 
centers. You mentioned Baltimore. Denver is not much different, 
as well as the other large, metropolitan areas in the State of 
Colorado, namely down south in Colorado Springs and here in the 
metro Denver area.
    We could take those resources and create the multi-modal 
role that we feel we need to do and address the issues around 
equity and again, climate change, that we put forth as 
priorities.
    If we have greater flexibility and more resources directed 
to city governments, I think you will see us move much more 
efficiently to address the overwhelming infrastructure 
challenges that face, again, 80 percent of the roads that our 
people are traveling on every day.
    Let me just mention this. Post-pandemic is going to mean 
that we are going to have a different work culture in this 
country. We believe that most people are going to have a 
rotational basis of working remotely and then in person. You 
are going to see small businesses who have been 
disproportionately harmed working to try to come back and 
recover as quickly as possible.
    I think the faster, more efficient way for us to address 
the roads will help everybody get to a better state of recovery 
in the next economy, and that is going to be critically 
important. We won't have time, as the Ranking Member talked 
about, bogging down municipalities in bureaucracy and having 
this intermediary of the State, again, playing a role.
    Although the State, and I am going to say, the States have 
been great partners. But we can move much more efficiently and 
be more nimble and accountable in moving forward with these 
road improvements that we have to have, be more multi-modal, 
and again, addressing the issues of climate, equity, and 
improvement on a much more fast track basis.
    Senator Cardin. Thank you very much.
    Senator Carper. Thank you, Mayor, and thank you, Senator 
Cardin.
    Now, another former mayor, and a mayor of Tulsa, if I am 
not mistaken, who has led this Committee, led the Armed 
Services Committee, and knows a thing or two, having authored 
major legislation for years on transportation.
    Senator Inhofe. It is been a joy working with a lot of the 
people who have--Ben is leaving right now, and the rest of us 
here. This is what we are supposed to be doing, the two most 
important things are defending America and infrastructure. At 
least, that is what I have always believed.
    Real quickly, I have a couple of UCs I want to propose at 
this time. One would be, I wrote an op-ed piece in the 
Washington Times this morning having to do with the bipartisan 
necessity that we are going to be dealing with right now to 
have a successful bill, and I ask unanimous consent that it be 
made a part of the record.
    Senator Carper. Without objection.
    [The referenced information follows:]
    [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. I have a second one, it is a letter 
submitted by the National Association of Truck Stop Operators 
stressing the urgency for Senators to protect the ban on 
commercializing interstate rest areas. It is kind of the old 
fashioned idea that the private sector does things better than 
the public sector does. I would ask unanimous consent.
    Senator Carper. Without objection.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Inhofe. All right. The second thing, we have done 
some really good work on this Committee. In the last Congress, 
we tackled something that had not been successfully addressed 
before, and that was on streamlining, not talking about it, but 
actually streamlining it.
    We had a Committee report, a bipartisan highway bill with 
the needed streamlining provisions, including codifying the One 
Federal Decision process.
    Governor Hogan, you come from a perspective of not just 
your own personal experience, but also chairing the National 
Governors Association.
    People are talking about it now, some people who are not on 
this Committee, but individuals, saying that we have already 
done the streamlining, we did that last year, and we don't need 
to do any more.
    So I would like to ask you, how do you respond to that, and 
how do project delivery delays affect the investments that are 
made by the States and the Federal Government?
    Governor Hogan.
    Mr. Hogan. Thank you very much, Senator. First of all, let 
me again agree with you on the importance for reaching a 
bipartisan solution to this. If we can't reach a bipartisan 
solution on something like infrastructure that everybody agrees 
is a priority, then it is going to be difficult to do that on 
anything else.
    But you are right. Enhancing efficiency and eliminating red 
tape, making the process go smoother, cutting the timeframes 
down will be very important to continue to make progress on.
    There was some progress made, but it is still much too 
long, much too confusing of a process that adds cost. It adds 
timeframes. Time is money. We don't get these projects moving 
forward, we are not solving the infrastructure needs, the 
transportation problems.
    It is also costing taxpayers a lot more money because of 
the delays, and when we are dealing with private sector 
investment, which we are doing a lot of, taking some of the 
risk out of the process by having some certainty about how long 
it is going to happen, I think is important.
    I mentioned earlier about how the One Federal Decision 
policy should be codified. We should establish a 2 year goal 
for completion of environmental projects and a 90 day timeline 
for related project authorizations. At the beginning of the 
discussion, somebody was talking about the 7 year timeframe 
that it takes to go through the environmental process.
    We all want to make sure that we very carefully ensure the 
safety of our environment, and we go through, and not skip any 
steps. But we have to speed up, do things simultaneously, 
concurrently, and speed the process somehow. It is going to 
mean a lot to doing more projects, putting more people to work, 
and making improvements to all these different things.
    Senator Inhofe. I appreciate that very much. I think it is 
significant, too, that we keep in mind, well, first of all, I 
have never seen a 5 year program that can't be done in 1 year, 
and we demonstrated that real clearly, I think, in the last two 
bills that we had, and we are on the right road there.
    Also, you brought up this idea of prioritizing. I think 
that we have done a really good job in Oklahoma. We were 
prioritizing prior to the last two bills that we had, Oklahoma 
had been, a lot of people don't know that they rank us in terms 
of the conditions of our bridges, and we were No. 49 in the 
country on the condition of our bridges. As a result of the 
efforts that we did, we now are No. 9. We have gone all the way 
from 49 to No. 9 in the condition of our bridges. We have some 
1,600 bridges in the State of Oklahoma.
    So I think that the important thing here, and I would ask 
you to respond to this also, both Governors, the significance 
of having the States be the movers of the priorities. A lot of 
times, people would rather the Federal Government do that, so 
States should determine the priority of surface transportation 
within their boundaries. What do you think?
    Mr. Hogan. I agree with you. I agree with you, Senator, and 
we even do that at the State level. We get input from each of 
the local governments on what their priorities are, and then as 
a State, we try to take those priority considerations in as we 
are putting together our State transportation plan.
    But it is the same way. Senator Cardin can tell you, when 
we meet with our Federal delegation, we lay out, these are the 
priorities of our State, and we are the ones on the ground that 
can make those decisions, get more input. Obviously, we want to 
work together with our Federal partners, but the States can 
help prioritize. There is no question about that. There is a 
lot of need, and we can't do everything at the same time. We 
want to make sure that we all agree on the priorities.
    Senator Inhofe. My time has expired, but I will ask, for 
the record, that you send something to us, Ms. Sheehan, about 
your work force development thing. We have been very active on 
this, not just in roads and highways. We have provisions in the 
FAA bill. If you could, for the record, send us something as to 
what we could do, Congress, to help in that area of work force 
development. OK?
    Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Inhofe.
    Another former mayor, not only is Senator Sanders is a 
former mayor, but he was mayor of Burlington, he was a 
Congressman, and now a Senator. He ran for President a couple 
times, and he is in the on deck circle.
    He is joining us by Webex today.
    Senator Sanders, you are recognized, if you are able to 
hear us.
    Senator Sanders. Thanks very much, Mr. Chairman, and thanks 
to all of our panelists who are with us.
    I don't know if I have anything profound to offer that 
hasn't been said already. What I can tell you is that in a 
rural State like Vermont, we are struggling big time with 
crumbling roads and bridges. We waste a lot of money just 
trying to rebuild rather than maintain our roads, which is just 
throwing good money after bad.
    And as everybody has said, we have the potential now as we 
rebuild our roads and our bridges, our water systems, our 
wastewater plants, our public transportation. We are behind 
many other countries around the world in terms of rail, and we 
are also focusing on climate change, the need to transform our 
energy system, which means, among other things, a whole lot of 
charging stations throughout rural America. As we do all of 
those things, we can create millions of good paying jobs, make 
our economy far more efficient, save lives, have safer 
transportation.
    Mr. Chairman, all that I wanted to say is count me in. This 
is a problem impacting urban America, but it is also a problem 
impacting rural America.
    And I do say this in a very divided political climate in 
this country. I think we can come together, at least on this 
issue. Whether you are a Republican Governor or a Democratic 
Governor, you have problems with your infrastructure. So let's 
go forward together, create the jobs, rebuild our 
infrastructure, and do the right thing for the American people.
    Senator Carper. Senator Sanders, thank you very, very much 
for that message, and for joining us today.
    Next, Senator Cramer, you are up.
    I have to return a phone call; I will be right back.
    In the meantime, Senator Capito, you are in charge.
    Senator Cramer. Thank you, Mr. Chairman, and Senator 
Capito. Thank both of you for your leadership on this important 
issue, both in the last Congress and now in this one.
    I thank all of the witnesses for your expert testimony and 
your thoughtfulness today, and for being with us today.
    Commissioner Sheehan, I don't know if you know North 
Dakota's commissioner, but we feel really blessed in North 
Dakota to have lured away from the mountains of Wyoming to the 
prairies of North Dakota Bill Panos, who is doing a great job. 
Every discussion I have with Bill, he of course, brings up an 
issue that has been alluded to a number of times today, and 
that is, of course, the formula.
    But North Dakota, being very rural, much like Wyoming, much 
like parts of some of these States that we are talking about 
today, I think every State has some part of it that is rural, 
but North Dakota is very rural.
    Could you elaborate a little bit on the importance, 
Commissioner, of the formula remaining the way it is, why it is 
so important for the entire system to maintain this formula?
    Ms. Sheehan. Thank you for that question, Senator, and yes, 
I know the head of the DOT in North Dakota, Bill Panos, well. 
He is one of my colleagues at AASHTO.
    The reason that States advocate strongly for formula 
funding is that it provides predictability into the future. As 
we advance our projects, we want to have certainty that the 
commitment that we are making to municipalities and counties, 
we can truly deliver on.
    In rural areas in particular, those formula dollars are 
being used each and every day to make lasting improvements in 
infrastructure, whether that is replacing deficient bridges, 
working to improve pavement condition, making safety 
improvements, or ensuring that our infrastructure is resilient 
to an increase in future extreme weather. So we as State DOTs 
continue to emphasize the need for that traditional funding.
    While in addition, you might look at increasing some of the 
other programs that could benefit communities more directly, we 
would not want to see those efforts move forward at the expense 
of the core program.
    Senator Cramer. Thank you for that. So, along the lines of 
funding, obviously, a lot of the discussion that takes place 
here deals with the funding, and there is never enough to do 
all the things we should do.
    However, one of the things, I think what the Commissioner 
of AASHTO has advocated for is a sustainable funding source, so 
the Highway Trust Fund obviously being the main source for 
infrastructure development and surface transportation 
development. You have advocated for the sustainability of that.
    Yet Governor Whitmer is understandably and appropriately 
proud of the work that the manufacturing sector is doing in 
creating more electric vehicles and hybrid vehicles. Of course, 
that ambition for that type of a climate response and a 
sustainable formula or revenue stream obviously intersect and 
conflict at some point.
    Could I ask each of you, Governor Whitmer and Commissioner 
Sheehan, to talk about what a future funding source would look 
like in terms of the revenue stream, please?
    Maybe Governor Whitmer, first.
    Ms. Whitmer. I will start. Thank you, Senator, for that 
question. I appreciate it.
    I knew that, eventually, this conversation would go to this 
part, and I know that is also the hard, tough job that you all 
have ahead of you. I know it is a long debated question, and I 
am talking about the solvency of the Highway Trust Fund and how 
to pay for needed transportation investments. I am not here to 
answer the question on the Federal gas tax. I can only speak 
from what I know.
    After decades of under-investment in Michigan, the people 
of my State elected me. One of my big tasks that I heard all 
across the State in all 83 counties was to fix the damn roads. 
My team and I looked at all the options as we came in to 
improve the funding outlook in Michigan. There is no question: 
We need a predictable, sustainable, and sufficient solution. 
That is the best case scenario.
    When I took my solution to the legislature, we couldn't 
find common ground, and so I had to pivot and do bonding. 
Because we know that doing nothing is not an option.
    As you know, festering infrastructure problems get harder 
to tackle and get more expensive. So I know that you are going 
to have this debate about how we prioritize this and make this 
a reality. I look forward to that debate, and I am happy to 
share any thoughts that we have from the ground of how we can 
improve the tenor and the substance of that debate.
    Senator Cramer. Thank you.
    Commissioner Sheehan, do you have some thoughts?
    Ms. Sheehan. Senator, thank you for the question.
    I, too, don't envy you the challenging work that you have 
ahead of you to identify a sustainable source of revenue for 
the Highway Trust Fund. We are having similar conversations at 
the State level, and our State legislature is hesitant to move 
toward a new source of revenue without understanding what 
direction the Federal Government might move in.
    But what I do know is that since the last gas tax increase, 
our cost of doing business has continued to increase, and we 
have lost buying power over the last 28 years. So we truly 
appreciate the efforts of the Congress to identify a 
sustainable solution.
    When the Highway Trust Fund receipts have not kept pace 
with the investments that we need to make, the fact that there 
has been other sources of revenue needed available so that we 
can continue our programs, that is extremely important to 
States, and we appreciate that continued support for 
transportation investment.
    Senator Cramer. Thank you, Mr. Chairman.
    Senator Carper. Thank you, Senator Cramer.
    Senator Whitehouse is joining us by Webex.
    Sheldon, if you are out there somewhere, please join us. 
You are recognized.
    Senator Whitehouse. Yes, I am, and thank you. I am 
delighted to have this terrific panel of witnesses.
    I wanted to talk first about coastal infrastructure. 
Governor Whitmer, Michigan counts, because the way we define 
coastal includes our Great Lakes. It is estimated that coastal 
communities are going to need to invest more than $400 billion 
in the next 20 years. That is based on our present, very 
conservative, and probably inadequate estimates of the damage 
that climate change portends through sea level rise and extreme 
weather.
    This is a new and very alarming demand for these local 
communities. As we look around at the places for support for 
coastal communities, we look at things, particularly in this 
Committee, like the Army Corps of Engineers Flood and Coastal 
Damage Reduction Fund. What we see in the last decade is that 
in our best year, $19 went inland for every single dollar that 
went to coasts. That was our best year in the last decade. In 
our worst year, $120 went inland for every single dollar that 
went to coasts.
    Everybody is familiar with the Land and Water Conservation 
Fund. That has a less egregious, but similar bias toward inland 
and upland projects over coastal projects. CoreLogic has done 
its 2020 storm surge report, and it estimates that over 7 
million single family homes are at risk of storm surge in the 
U.S., and that the cost to rebuild those homes would exceed 
$1.7 trillion.
    So we have a big coastal problem on our hands. It is a 
coastal problem that we are ignoring. The Chairman comes from a 
State that is similar in size to Rhode Island and has even 
lower topography. So Delaware and Rhode Island share a very 
strong concern about these issues.
    We were able to get into the last highway bill that came 
out of our Committee unanimously some very good work on coastal 
infrastructure. Because it is not just going to be homes that 
are flooded; it is also going to be infrastructure. When 
infrastructure goes, you can also lose homes and access to 
emergency services to homes. So it is a big problem.
    I would like to ask the Governors to comment on what they 
see as the needs in their States to protect coasts. I think 
Maryland is more immediately affected, because of the oceans 
problem. But Michigan and the Great Lakes have their own 
issues, as well.
    Mr. Hogan. Thank you. Thank you very much, Senator. Thanks 
for raising the issue.
    A lot of the discussion around climate change is about 
mitigation and about clean air, and not enough, I think, 
discussion about how we mitigate some of the problems that are 
going to be caused by flooding, and as you just touched on very 
eloquently, the coastal flooding issue.
    We did touch on this, and a lot of our focus was on 
transportation infrastructure during the NGA Initiative. But we 
did talk about resiliency, and trying to address some of these 
issues in our State, along with what Governor Whitmer said 
earlier.
    But we have made great strides with respect to climate 
change. We have cleaner air standards than 49 other States, we 
put tax credits in for electric vehicles and charging stations, 
and are taking a lot of actions on mass transit to get people 
off the roads.
    But this is one we have invested some dollars in. But you 
are right, there has been not enough funding. It is something 
we do have to address as you are looking at infrastructure. Not 
just coastal flooding, but further upstream, the flooding is 
going to occur as well.
    As a small coastal State adjacent to the Chairman's State 
of Delaware, it is obviously an issue and a concern for us with 
the Chesapeake Bay, which is one of America's greatest natural 
resources. It is an issue that we deal with, and I will pass it 
on to my colleague to weigh in. But it is an important issue we 
have to address.
    Ms. Whitmer. Yes, thanks, Governor Hogan, and Senator 
Whitehouse, thank you so much for the question. I think that it 
is really important.
    I am glad that you highlighted the coastline in Michigan. 
We have 3,200 miles of coastline in Michigan, all fresh water. 
Twenty-one percent of the world's fresh water is in and around 
the Great Lakes. So this is something that we take very 
seriously, and we have seen the impact of climate change.
    We need to address this through resilient infrastructure. 
High water levels have eroded our shoreline and washed away 
roadways, and we have had devastating flooding in communities 
that have forced evacuations.
    We had to evacuate 10,000 people in Midland, Michigan. That 
wasn't along the Great Lakes, but it was just another example 
of the need for resilient infrastructure, because it washed out 
a number of dams and bridges when that 500 year flooding event 
happened.
    So whether it is in Texas, or it is in the freshwater 
coastline of Michigan, or along the Nation's borders all across 
the country, this is something that is of critical importance. 
When we see high water levels that are eroding our shorelines, 
they are impacting everything from our drinking water to just 
our ability to conduct life and be safe in doing that.
    So we have a lot of needs in this area. But there is no 
question that resilient infrastructure along the coastlines is 
an important part of the overarching problem that we are 
hopeful that you will help us address.
    Senator Whitehouse. Mr. Chairman, I am probably close to 
out of time, if not completely out of time. So let me just let 
Governor Whitmer know that, as the fix the damn roads Governor 
and as the auto Governor with GM having made these commitments 
to going to all electric vehicles, we have in the bill that we 
passed significant support for electronic vehicle charging 
infrastructure. We are eagerly trying to get tax support for 
electronic vehicle charging infrastructure.
    As you know, it is going to be a very bad thing for GM if 
they commit to electric vehicles and we haven't built the 
infrastructure to charge those electric vehicles. So we are on 
the case, but we need your help and the help of our Republican 
colleagues to make sure that that all gets done aggressively 
and energetically.
    Ms. Whitmer. Thank you.
    Senator Carper. All right.
    Senator Whitehouse, something you just said reminds me of a 
conversation I had with one Senator Stabenow's constituents, 
Mary Barra, CEO of General Motors. We were talking a year ago 
about what it was going to take to convince consumers in this 
country to buy electric powered vehicles and hydrogen powered 
vehicles.
    She said, with respect to EV, she said we need three things 
to convince our customers to buy them if we are going to build 
them. She said, the first thing we need is a 300 mile range on 
a charge; we have that now. The second thing we need is 
charging stations across the country corridors, both for 
electric and hydrogen vehicles. The last thing she said that we 
needed is the technology to enable them to charge batteries in 
minutes, not hours. Luckily, we are knocking on those doors. 
The one thing that we really need is No. 2, to your point, 
Sheldon.
    Senator Whitehouse. Mr. Chairman, I am driving one, and 
anybody who has had the pleasure of driving an electric vehicle 
knows what a thrilling experience it is.
    Senator Carper. Yes, they are fun. They are a lot of fun.
    Our States may be small, Sheldon, but we punch above our 
weight. There you go.
    All right, I think Senator Lummis is next.
    Welcome aboard.
    Senator Lummis. Thank you so much, Mr. Chairman, and 
Ranking Member.
    I really appreciate this topic. It is so important to my 
State of Wyoming.
    My first question is for Mayor Hancock and for Victoria 
Sheehan.
    Thank you both for being here.
    Greetings, Mayor, I am from your State to the north, 
Wyoming, and spend a lot of time in your beautiful community.
    My question for both of you is related to Senator Cramer's 
question earlier. He asked about the importance of the formula. 
My question is about the flexibilities within the formula fund. 
How important are the flexibilities in formula funds to ensure 
the very needs of States can be met with Federal dollars, given 
how very different the needs are of our States and our 
communities?
    Mr. Hancock. Senator Lummis, first of all, as we like to 
say here, between Colorado and Wyoming, we forget the 
boundaries, so we consider you family. So it is an honor to 
meet you, at least virtually.
    I appreciate your question, because I think you get to the 
heart of the real opportunity before all of us as we try to 
think about what the future investments around transportation 
and infrastructure looks like, how we address the looming 
challenges of climate and equity going forward. Cities, in 
particular, have to have flexibility because we better 
understand the nuances of our communities, and really, the 
challenges that so many in our community face.
    I often say, when I talk about transportation mobility, if 
you want to know where poverty exists, show me where the least 
number of options around mobility exist, and I will show you 
poverty. That is true no matter where you are in this country, 
rural or urban, suburban, doesn't matter.
    The reality is that we have got to be able to adjust to the 
flexibilities. That is why as mayors, we have proposed 
utilizing some of the tools within the Federal Government, 
working with our States and municipalities today, whether they 
are STBG or the CBG, or even renewal of the Energy Efficiency 
Block Grant, so that we can be much more facilitative and 
flexible in addressing the challenges we face.
    So many of our communities have been perennially overlooked 
and underserved. We get a chance to provide those ladders of 
opportunity, grant multi-modal options to those communities to 
make sure that we are able to create connectivity and to create 
affordable housing, good schools, access to good healthcare, 
and particular transportation corridors and to lift them, give 
them an opportunity to be lifted out of poverty.
    So the flexibility within the formula is critical. And I am 
glad you landed on that. It shows a great deal of insight, 
coming from a Wyoming cowboy, or cowgirl.
    Senator Lummis. Thanks, Mayor, and thank you, Ms. Sheehan.
    On behalf of AASHTO, would you make some remarks on that 
same subject?
    Ms. Sheehan. Thank you, Senator.
    So, as State DOTS, we are advancing projects that fulfill 
numerous goals, and that is why flexibility is so critical. For 
example, if we are replacing a bridge that is structurally 
deficient, we may be replacing that bridge with a longer 
structure that is more resilient and can handle an increase in 
storm frequency.
    We also may be widening, not to increase capacity, but to 
provide more amenities for active transportation, whether that 
is sidewalks or bike lanes or wider shoulders, depending on 
that unique situation.
    So as we advance the project, the flexibility is critical, 
because none of our projects fit nicely into one category. We 
are trying to work with communities, understand what their 
needs are. We talk to them about what a successful project 
looks like for them and incorporate all of those different 
aspects into the projects that we do.
    Flexibility of the funding allows us to be nimble and make 
sure that we are not just doing one type of project one way, 
that we can truly partner with communities and meet their 
needs, as well as the regional transportation needs that the 
State is focused on.
    Senator Lummis. Thank you so much. With the little bit of 
time remaining, I would just ask our Governors to respond, 
perhaps, in the context of the next questioner, to the issue of 
the permitting processes. Are there opportunities to improve 
the Federal permitting processes to expedite completing 
infrastructure projects?
    You don't have sufficient time within my 5 minutes to 
respond. So I will just thank you, Governor Whitmer and 
Governor Hogan, for participating in this hearing and for your 
work on behalf of your States. Having come out of State 
government, I am deeply appreciative of the work that Governors 
do, and thank you very much, all four of you, for participating 
in this hearing today.
    Thank you, Mr. Chairman, I yield back.
    Senator Carper. Senator, thank you.
    I would ask our Governors to just respond to Senator 
Lummis's question for the record, and share that with all of 
us, please.
    Senator Lummis was State treasurer at one time, right?
    Senator Lummis. Correct.
    Senator Carper. I think you came close to running for 
Governor, maybe did run for Governor. Didn't you?
    Senator Lummis. Well, I came close. I did serve as general 
counsel to our Governor once upon a time, and our current 
Governor, you know, I suspect, and worked within the National 
Governors Association. Great guy, and I salute Governors for 
their hard work, especially during COVID. This has been 
extremely challenging for all of you. Thank you for your 
leadership.
    Senator Carper. I will just mention, between all of us, we 
have got some extraordinary backgrounds in terms of experience, 
levels of experience in different kinds of jobs that our 
members have held, and it is something we can take full 
advantage of.
    Next is Senator Merkley, who used to be my seatmate on the 
Senate floor. He left me about 2 weeks ago, but he is still on 
our side. He is sitting about 20 feet away now.
    Jeff, you are recognized. I think you are on Webex, and I 
think after you, Senator Markey. And after Senator Markey, it 
would be Senator Duckworth, Senator Stabenow, and maybe Senator 
Kelly before Senator Stabenow, I think. We will figure out how 
to do that, but Senator Merkley, you are up. Thank you.
    Senator Merkley. Sure, Chair Carper. Thank you very much. 
It is a pleasure to join you all.
    I wanted to start with a question to Mayor Hancock. I know 
that Denver last year enacted its EV action plan, which 
addressed in part charging infrastructure. I think part of the 
strategy was to create more charging infrastructure in 
underserved communities. Maybe you could just share what the 
goal was, and what you have learned in the last few months, 
what challenges you see ahead.
    Mr. Hancock. Thank you, Senator, and I appreciate your 
question.
    The EV Action Plan was about, exactly as you are alluding 
to, the proliferation of charging stations around the city, 
with particular focus on communities to bridge the challenges 
around equity.
    We did a couple things. One, we changed our zoning code so 
any new buildings and housing units would have charging 
stations available to them, or at least a charging 
infrastructure would be available for the creation of that.
    But we also, the city started looking at our public 
facilities, our parks, our recreation centers, that we own and 
begin the process of funding installation of charging stations. 
We have it already at our airport, for example.
    But these facilities that are much more readily available 
to underserved communities would be available to them as well, 
as well as some of our meter stations. Our meter locations 
around downtown Denver or wherever meters are located, we would 
also have some charging stations available to that.
    So, we began, in the last 18 months to 2 years, began the 
process of rolling out that infrastructure, making appropriate 
investments. We are really beginning the process of ramping up 
more of that, but we are making progress under that. I can get 
back to you in terms of the actual movement toward the 
particular goal. We will make sure we get that to you from our 
staff.
    But I am pleased with where we are, and the fact that we 
have laid the foundations for new builds to make sure that that 
is available to them.
    Senator Merkley. Thank you. Thank you very much, Mayor. I 
see it as one of those plans that advances climate by 
encouraging movement to electric vehicles, but it also helps 
address environmental and economic justice. So I look forward 
to more information.
    Speaking of economic justice, I wanted to turn to Biden's 
pledge to ensure that 40 percent of the benefits from the 
infrastructure package are put forth to disadvantaged 
communities, communities that have been disinvested in.
    Mayor Hancock, do you support Biden's 40 percent pledge?
    Mr. Hancock. I do, and I think if you look more closely at 
a lot of that, on a local level, a lot of the cities are 
already focused on doing exactly that.
    We have in Denver a new equity strategy. I opened up a new 
Office of Equitable Innovation and Sustainability to make sure 
that we are advancing the goals of equity in everything that we 
do, including our contracting. Of course, we must do disparity 
studies to demonstrate the underserved and the 
underutilization, but we are absolutely committed, and I think 
President Biden's goal is right on target.
    Senator Merkley. Thank you. I wanted to ask the same 
question of our other colleagues, but to just get a very short 
response, so I can move forward to another question.
    Governor Whitmer, do you also support the 40 percent 
dedication to disadvantaged communities?
    Ms. Whitmer. I do think that it is important that we have 
equity built into all of these policies. What we have seen in 
transition is that that hasn't always been the case, and 
communities have been left behind. So this is something that I 
think is crucial in our deliberations and should be embedded in 
the policy work that comes out on this front, and frankly, many 
others.
    Senator Merkley. Of course, part of the goal is sometimes 
it is easy in theory, but it is hard in practice, because those 
same communities may have less political power, which is why 
the 40 percent is there. It is not just a commitment to the 
ideal, but to the, well, let's actually make it happen.
    Governor Hogan, do you support that same 40 percent 
fraction?
    Mr. Hogan. Well, in our State, I think that way more than 
50 percent of our transportation investment goes into 
disadvantaged communities and minority equity types of issues, 
because we are mostly focused on the urban areas and the areas 
that immediately surround them.
    I haven't seen President Biden's proposal yet, frankly, but 
tomorrow, both the Secretary of Transportation and the 
President will be joining all of the Nation's Governors. We 
look forward to hearing more details about their plans with 
respect to transportation.
    Senator Merkley. Governor, one of the reasons I felt this 
was important to raise is because I was in DC when the Metro 
system was built. Anacostia was left out because it was the 
black neighborhood that had little political power. So the 
Green Line didn't get built for forever.
    Then similarly in Maryland, the Red Line has the same 
national reputation as a line that was planned to connect low 
income black neighborhoods with few jobs to job centers, and to 
also develop transit and development in those disinvested black 
neighborhoods, and to improve the air quality that was bad 
because of the amount of traffic congestion and associated 
pollution.
    But that is a project you chose to cancel and put the funds 
instead in predominantly white communities. So would a 40 
percent pledge like this help fund projects, make sure projects 
like the Red Line in Baltimore actually happen to serve such 
disinvested communities?
    Mr. Hogan. Senator, I would totally disagree with your 
assertion for a number of reasons, but we don't have time to 
debate that here this morning.
    The Red Line, according to the Washington Post editorial 
board, never made any economic or transportation sense. Our 
Transportation Department recommended against it. But we did 
move forward on the Purple Line, which goes through Prince 
George's County. It is 16 stops in minority communities and 
ties into the Metro system, which I came up with a funding 
stream to try to keep functioning when there wasn't enough 
Federal investment.
    Senator Merkley. We are out of time.
    Senator Carper. Thanks for those questions, Senator 
Merkley, and for the responses as well.
    Senator Markey, you are up, my friend.
    Senator Markey. Thank you, Mr. Chairman, very much, and 
thank you to our great panel which is joining us today.
    We are obviously at a crossroads in terms of our 
relationship with greenhouse gases and the impact they have 
upon minority communities, communities of color, historically 
disadvantaged communities, and the role the United States must 
play in finding the solutions and exporting those solutions 
around the rest of the planet.
    So that is why this hearing is so important. Obviously, 
Governors play a huge role, mayors play a huge role in helping 
to set the course for where we have to go.
    We have to think big; we have to act big. We are running 
out of time to deal with the climate change crisis, and the 
transportation sector is a central part of the solutions.
    I have introduced a bill called the Green Streets Act with 
Senator Carper and other members of the Committee. That bill 
would require very strong standards to reduce greenhouse gas 
emissions in vehicle miles traveled for transportation planning 
and projects.
    I am also introducing today the Freezer Trucks Act to help 
replace diesel powered refrigerated trucks with cleaner, 
electric versions in overburdened communities as well.
    In Chelsea, Massachusetts, which is our poorest community, 
we have diesel trucks just idling all day long near the most 
vulnerable communities that already have the highest levels of 
asthma and the highest levels of coronavirus because of their 
obvious preexisting vulnerability, because they are both lung 
diseases.
    So, Governor Whitmer, can you talk about the future, as you 
see it, of the new announcement by General Motors and other 
motor companies to move to 100 percent electric vehicles by 
2035, what that might mean in terms of this partnership that we 
can have with the States to ensure that we telescope the 
timeframe to reach a day where we have a new fleet, jobs are 
being created by the millions, and at the same time, we are 
making sure that those who are most vulnerable are being 
protected?
    Ms. Whitmer. Absolutely, Senator Markey. It is good to see 
you, and I appreciate the question.
    I am going to have to pre-apologize, this will have to be 
my last question. I have to give my press conference on our 
updates about what is happening in the State. So I am glad for 
an opportunity to answer this question now.
    Last year, I created the Council on Future Mobility and 
Electrification, and it was intentional to bring diverse 
stakeholders together to help build a mobility strategy for 
Michigan and help identify where opportunities for growth and 
improvement are. With those stakeholders, we are working to 
build an electric vehicle charging network that connects the 
entire State by 2030, and hopefully connect with other networks 
across the Midwest.
    I can tell you, I was in a call last night with a number of 
my colleagues from the Midwest, and we are thinking about ways 
that we can collaborate. This moment has brought us together in 
ways we couldn't have imagined, but there are opportunities out 
of this that we are already talking about. Significant 
investments in our electric grid, renewable energy, and 
charging infrastructure to ensure reliability and drive the 
market for EVs, to address issues like range anxiety, as we 
talked about earlier in this hearing.
    Over the past 2 years, between State and local governments, 
our utility providers, our auto manufacturers, we have invested 
millions in electric vehicle charging infrastructure, which is 
really important, and we have some of the most in the Midwest.
    In addition to this though, we have to lead by example and 
increase the number of electric vehicles in our State and 
federally controlled fleets. Tax incentives should be reviewed, 
I believe, to be more useful for commercial fleet owners, as 
fleets represent the greatest near term commercial opportunity 
for large scale deployment of electric vehicles.
    Then building up a network of publicly available charging 
stations that are capable of serving medium and heavy duty 
vehicles. To your idling comment, I think that is particularly 
important.
    My State is looking to take a lead in doing a lot of this 
here in the Midwest. But certainly, this is something that is 
important for our entire Nation.
    The program that we have developed is looking to take 
applications for partnerships through the recharging 
infrastructure grant program. With our new Office of Future 
Mobility and Electrification, with our Department of 
Environment, Great Lakes, and Energy, we are working alongside 
industry partners, and that is, I think, really important.
    As we tackle this problem, we have much greater odds of 
success if we are bringing in partners from all different 
spaces to solve this problem, and it will be good for the job 
front, it will be good for the climate problems that we are 
having, and good for our economy.
    Senator Markey. Thank you, Governor. I do believe that 
Michigan, in a lot of ways, is going to be at the center of 
leadership. Thank you for your great work and your vision on 
these issues.
    We can begin to create millions. We can save all of 
creation while engaging in massive job creation in the 
automotive sector and the sectors of our economy. It is just 
important for us to continue to deliver that message that this 
is a job creation moment and at the UAW, the auto industry is 
signing up, and that is something that we have to focus on. We 
have to focus on the freezer trucks, diesel fuels, others that 
don't oftentimes get to be a part of this conversation, which 
necessarily have to be if we are going to solve the whole 
problem.
    Thank you so much, Governor, for your great work.
    Ms. Whitmer. Thank you, Senator.
    Senator Carper. Thank you, Senator.
    Senator Markey. Has my time expired?
    Senator Carper. It is more than expired.
    Senator Markey. OK. Thank you, sir.
    Senator Carper. Thank you.
    Governor Whitmer, thanks so much for being a part of our 
panel today. This is a terrific panel. We have a couple more of 
our colleagues who have questions to ask, and we appreciate the 
other three panelists staying on board.
    Governor Whitmer, I would just say that when the baseball 
team has the worst record in baseball, they get the top draft 
choices, and hope springs eternal for our Tigers. They have got 
some great young arms, and I look forward to maybe seeing a 
game with you and Debbie and Gary someday soon.
    Ms. Whitmer. Let's do it.
    Senator Carper. Thanks so much for joining us.
    Ms. Whitmer. Thank you.
    Senator Carper. Next, we have Senator Duckworth, and after 
Senator Duckworth, Senator Stabenow, and then Senator Kelly, 
and maybe some words from Senator Capito to wrap it up, and we 
are going to work Lindsey Graham into this, somehow. All right.
    Senator Duckworth. Thank you, Chairman Carper. Can you hear 
me?
    Senator Carper. Yes, you are fine. Just fine.
    Senator Duckworth. Wonderful. I appreciate your leadership 
in making sure our Committee's top priority is passing a 
comprehensive infrastructure package that rebuilds our roads, 
rail, and transit systems.
    Of course, if we are truly to build back better, in 
Congress, we need to do a lot more work. We need to also 
prioritize drinking water and wastewater infrastructure in any 
proposal. After all, there is one fact of life that ties all of 
us together, the absolute necessity for safe and reliable water 
systems.
    It is long overdue for Congress to place as much importance 
on what is built underground as we do on above ground projects 
that all can see. I also believe in the ``dig once,'' when we 
are going to fix the roads, might as well fix the sewer systems 
while you are at it.
    Unfortunately, years of neglect have created a crisis that 
this Congress must solve. EPA estimates that to deliver safe 
drinking water to every household in America, we would have to 
invest half a trillion dollars over the next 20 years to 
maintain or upgrade our pipes, storage, tanks, and treatment 
facilities. Let that sink in a little bit. Half a trillion 
dollars, $500 billion over two decades.
    I have a two part question, I would like to also send this 
to Governor Whitmer, but Governor Hogan, I hope that you will 
be able to address this issue first. Do you agree that water 
infrastructure should be a centerpiece of our build back better 
efforts? Second, could you discuss how robust Federal 
investments in State and local water systems would help create 
jobs, foster economic growth, and most importantly, protect the 
health and safety of your constituents?
    Governor Hogan.
    Senator Carper. Senator Duckworth, Governor Whitmer had to 
leave for another event.
    Senator Duckworth. I knew, yes. I am just saying, if 
Governor Hogan could also address it.
    Senator Carper. Oh, that is great, OK.
    Governor Hogan. You are batting cleanup here.
    [Laughter.]
    Senator Duckworth. It was really to both Governors.
    Senator Carper. Governor Hogan, are you there?
    Senator Duckworth. I can go to Mayor Hancock, I have a 
question for Mayor Hancock, as well.
    Senator Carper. All right, let's do that. Thank you.
    Senator Duckworth. Mayor Hancock, it is estimated that 
Chicago drivers lose 138 hours each year due to congestion, a 
tremendous loss of productivity that I am confident is also 
experienced in communities across our Nation. That is why one 
of my top priorities is making sure our forthcoming 
reauthorization proposal treats reducing roadway congestion as 
the national priority it is for the millions of Americans who 
are stuck driving to work every day.
    I am confident we can build broad, bipartisan support of 
these efforts as evidenced by the inclusion of my proposal to 
establish a competitive congestion relief grant program in the 
surface transportation bill that our Committee favorably 
reported last Congress.
    Mayor Hancock, can you explain how authorizing a 
congressional relief grant program would help local governments 
like Denver advance innovative roadway congestion solutions?
    Mr. Hancock. Thank you, Senator Duckworth, and I appreciate 
your question. Yes, I believe that with regard to people taking 
other modes of transportation, you have to offer just as many 
or more competitive driving options, or options for them than 
driving alone. Our single occupancy rate in Denver was over 73 
percent. That is just unsustainable in a city that has grown as 
fast as the city of Denver.
    So it is important that we offer options that give them the 
reliability, the predictability, and of course, cost efficiency 
as well for them to choose different modes of transportation or 
to have multi-occupancy within a vehicle or multi-occupancy in 
a mode. There should be focus on different modes and options 
for municipalities, whether it is simply building highways or 
streets. That why we are focused in Denver on things such as 
bike lanes and transit and other modes that move people, moving 
people and not just vehicles.
    So we actually agree with what you found in Chicago, and 
recognize that until we get serious about that, in terms of 
creating options that make sense for people, that are just as 
competitive as driving alone, we won't be able to break through 
on this challenge of congestion.
    Senator Duckworth. Thank you, Mr. Mayor.
    Mr. Chairman, I would like to go ahead and submit my 
previous question for the record for the two Governors and have 
them answer in writing. Thank you.
    Senator Carper. Yes, that will be fine. I am happy to do 
that.
    Senator Duckworth. Thank you.
    Senator Carper. Any other comments, questions, Senator?
    Senator Duckworth. No, I yield back. Thank you.
    Senator Carper. Thanks so much for joining us today.
    We have also been joined by Senator Lindsey Graham, who I 
know from experience has a real interest in some of the issues 
that we are talking about here today.
    Lindsey, we are happy you have joined us, and welcome. You 
are recognized, and you will be followed by Senator Stabenow, 
Senator Kelly, and last but not least, Senator Padilla.
    Senator Graham. OK. Well, thank you, Mr. Chairman, I look 
forward to working with you and Senator Capito.
    This should be the most bipartisan committee, because we 
all need roads and bridges and all that kind of good stuff. So, 
I will make a comment, and then I will ask a question. I think 
we have got a Highway Trust Fund shortfall. Increasing gasoline 
taxes may be a necessary idea.
    But what I want to share my thoughts with the Committee is 
about the future. Our friends in Michigan, they tell me that 
most cars being made in the future are going to be electric, 
not gasoline driven. So, General Motors said that by 2035, they 
will do away with their gasoline operated vehicles. That is a 
major societal change.
    So whatever we do with the trust fund, we need to capture 
the fact that most cars, by the middle of the century, by 2050, 
probably won't run on gasoline. That will be good for the 
environment, but it will certainly require us to put new 
infrastructure in place and redesign the trust fund.
    What I would like to do as we try to reauthorize the 
current system is to put some money aside to develop the 
infrastructure of the future. I think drones are going to be 
more available when it comes to transporting material. I think 
trucks are probably going to be not just electric, maybe 
hydrogen vehicles in terms of long haul trucking.
    So the bottom line is, if it is true that the gasoline 
driven car is going to be less plentiful on the road by the 
middle of the century, and maybe the dominant mode of 
transportation will be something other than gasoline, we need 
to start now redesigning the trust fund. We need to start now 
plowing money into infrastructure consistent with a new way of 
transportation. And if it is true that most cars in the future 
are going to have a driverless component, seems to me we should 
be investing in the technology to make it as safe as possible.
    The only thing I want to add to what has been said is the 
future. Let's take an opportunity in 2021 to start laying the 
groundwork for a more sustainable trust fund in terms of the 
way vehicles are going to be changing from gasoline to 
electric, let's look at the emergence of driverless vehicles 
and try to make them safer quicker.
    If we can own this space in the 21st century as America and 
develop this technology and sell it around the world it would 
be one of the biggest things we have ever done as a Nation, I 
think, since maybe developing the car itself.
    I don't know who we have as witnesses left, but here is a 
question to anybody out there. In your States, do you have a 
plan to deal with the fact that there is going to be more non-
gasoline driven cars on your roads? Have you embraced the idea 
that the driverless vehicle is coming sooner rather than later? 
What thoughts do you have about how to accommodate these 
changes, and what plans do you have to capture money for the 
trust fund from non-gasoline driven cars in your State or your 
city?
    So whoever is out there, that is my question.
    Senator Carper. I think we still have a mayor, and we still 
have a commissioner out there, so ladies first, please.
    Senator Graham. We will start with the two that we got.
    Mayor.
    Senator Carper. Commissioner, go ahead.
    Ms. Sheehan. Senator Graham, I appreciate your remarks. We 
as State DOT leaders are very excited about the opportunity of 
connecting automated vehicles, and we also have been preparing, 
building out our EV charging infrastructure and planning for 
the future.
    Senator Graham. If you don't mind, what percentage of cars 
in your State are electric vehicles at this point?
    Ms. Sheehan. It is a relatively low percentage. It is only 
approximately 4 percent, I believe, as of this time. However, 
we are seeing that number increase year over year. So, here in 
New Hampshire, we established an electric vehicle charging 
commission. All of the State agencies have been supporting the 
legislature so much that the programs that were discussed 
earlier in Michigan and other parts of the country.
    We are trying to bring all of the stakeholders to the table 
to make sure that we understand at what rate things will 
change, but most importantly, we do want to reassure the 
consumer that if they were to purchase an electric vehicle, 
that there is the infrastructure to support them moving freely 
within the State, especially when it comes to visitors. New 
Hampshire's economy is really driven by travel and tourism, and 
so we want to ensure that visitors to our State don't have that 
anxiety either about what infrastructure is available to them.
    You also touched on connected and automated technologies. 
In 2019, there were over 36,000 individuals lost on our 
Nation's roads. That statistic is incredibly troubling, and the 
promise that connecting automated vehicles bring is the 
opportunity to ensure that, in the future, there are truly zero 
deaths in our system.
    Those are initiatives that State DOTs are excited to work 
on, and we are preparing for the future. Our State legislatures 
are asking us to look at our existing State statutes, our 
administrative rules, our design criteria, and make sure that 
we are addressing the regulatory aspect of our work, and that 
is not a barrier to being able to deploy these technologies 
quickly and effectively.
    Senator Carper. Senator Graham's time has expired. I still 
want the Mayor to respond briefly to his question, so Mayor, if 
you could do that, that would be great. Thanks.
    Senator Graham. Yes, Mayor, if you could give us 30 
seconds, I am sorry to go over here.
    Mr. Hancock. Sure, Senator Graham, I can respond in 30 
seconds. First of all, I appreciate your comments and your 
thoughts about the future. I want to submit that we are already 
behind the rest of the world, and all you have to do is leave 
our coast and go to a different country and find that the 
technology is advancing in terms of electrification, use of 
electric vehicles.
    The real challenge, of course, is the lack of supply. More 
auto makers are rolling out more electric vehicles, so that is 
critical. Second is the cost, and we have got to make sure to 
get it down so that there is some equity within the system.
    Finally, of course, is the infrastructure. We lack 
infrastructure. Let me submit that we talked about, at least, I 
suggested that the renewal of the Energy Efficiency Block 
Grant. That would be critical to help States and cities to 
proliferate charging stations and the infrastructure around our 
States.
    If I could just add one last thing to your list in terms of 
looking to the future, that is the urban air travel system. 
Within urban areas, very soon, we won't be on surfaces. We have 
technology today that can move people without being on the 
ground, and we need to begin to prepare for that as well.
    Senator Carper. Senator Graham, your question is prescient. 
Remember the old movie, Back to the Future? Earlier in the 
hearing, we talked a little bit about the last bill that we 
passed out of here unanimously. I think it was 21 to nothing, a 
5 year reauthorization.
    Included in that reauthorization was a 50 State pilot on 
vehicle miles traveled. We have so far, done about six or seven 
State pilots for vehicle miles traveled, and I described it as 
part of the future for transportation funding, maybe eventually 
the principal place. We are still going to have a bunch of cars 
and trucks and things on the road, because people keep their 
vehicles, on average, about 10 or 11 years. So they are going 
to be around for a while.
    Thank you, it is great having you on the Committee. Welcome 
aboard.
    Next, Senator Stabenow.
    Senator Stabenow. Well, thank you again, Mr. Chairman. When 
we are talking about electric vehicles, I certainly feel like 
we are in the Michigan wheelhouse. I appreciate so much 
Governor Whitmer being with us this morning, as well as 
Governor Hogan.
    Let me just add to the discussion on this. I couldn't agree 
more that we have to look at our financing around 
transportation, given where we are going. I would also say 
this: That our companies are investing tens of billions of 
dollars on the future right now. They cannot get there without 
a partnership with us.
    China has invested $100 billion to get ahead of us, to not 
only own the technology, and part of this, to build these new 
vehicles, the plants that have to be open. We are going to need 
a number of battery cell plants to be able to deal with the new 
technology and the parts that are needed.
    This is very exciting, because we have all kinds of new, 
clean energy jobs in manufacturing to give us the supply chain 
to be able to do it, but China is already doing it. They are 
already out there trying to own all of this, as well as the 
charging infrastructure, as well as all of it.
    So we really are in a race, a competitive race that we can 
win. Right now the majority of the expertise and technology is 
in America, but it won't be unless we are partnering with them 
to get there.
    I would just say not only are charging stations critical, 
we have got to deal with range anxiety, we have got to deal 
with how folks feel they can drive across the country in these 
wonderful new vehicles, not only small vehicles, but your F-150 
truck is going to be all electric, Mr. Chairman, coming next 
year with Ford, as well as all kinds of others. I could do ads 
for all kinds of vehicles.
    But the other thing I would say, until we get to the price 
point for consumers as well, the consumer tax credit that we 
have had in place that is now running out needs to be continued 
for a piece of time until we get the volume up. It is like any 
other kind of technology. Until there is enough purchasing 
power, you don't see the price go down. So electric vehicles, 
the cost points, and having the supply chain to be able to do 
this.
    I just have one question, as we conclude, I appreciate very 
much all of our witnesses.
    I want to ask Ms. Sheehan, from your vantage point as 
President of the American Association of State Highway and 
Transportation Officials, if Congress were able to meet the 
entirety of the investment backlog you have indicated there is, 
the investment backlog is $836 billion for highways and bridges 
and $122 billion for transit. If somehow, we could reach all of 
that or reduce it substantially, what would that mean to 
economic growth as we come out of the economic crisis and the 
pandemic?
    Ms. Sheehan. Thank you, Senator. First and foremost, it 
would create immediate economic stimulus across the country. 
Jobs in transportation are good paying jobs. Given the impacts 
of the COVID-19 pandemic, investing in infrastructure will 
truly help us build back better.
    Further to that, we as State DOTs are in the business of 
asset management. We want to make the most financially sound 
investments in our infrastructure, reducing the life cycle cost 
of operating that infrastructure.
    So if we can address the backlog and move forward in a way 
that we can maintain the existing system in a good state of 
repair, that will save taxpayers money into the future. When we 
allow things to fall apart, it can cost four times to ten times 
as much to build the infrastructure back and have it in a good 
state of repair.
    So as the owners of this infrastructure trying to manage it 
as effectively as possible, we really want to address that 
backlog and then move forward in a new day with a much more 
efficient way to maintain our systems.
    But more than that, I talked about the high number of 
fatalities on our systems. These investments would save lives. 
We would be making long term safety improvements, we would be 
improving quality of life for communities, building sidewalks 
and bicycle and pedestrian facilities, that are fantastic ways 
to stimulate economic activity in downtown areas. We would be 
addressing different aspects of quality of life, improving 
access and opportunity for every American.
    Senator Stabenow. Thank you.
    Mr. Chairman, I just want to say that one of the reasons I 
am so pleased to be on this Committee is that I think this 
Committee has the opportunity to fundamentally change the 
future for our country and for our citizens, and this is a huge 
part of it, so thank you.
    Senator Carper. Senator Stabenow, I think you and Senator 
Kelly, Senator Padilla, and Senator Graham are really smart, 
because you joined this Committee at a time when we can work on 
job creation at a time when we very much need it.
    We can work on improving the air quality that we breathe; 
we can work on climate change; we can just do so many good 
things. We can work on equity issues, and we really make a good 
Committee better, but this is a great time to be on this 
Committee. Thank you for joining us.
    All right, Mark, my friend, welcome aboard, Captain. You 
are recognized.
    Senator Kelly. Well, thank you, Mr. Chairman, and I am 
pleased to be on this Committee as well.
    This question is for Commissioner Sheehan about NEPA 
reviews. I frequently hear concerns from transportation 
planners in Arizona about the limitations of when and how NEPA 
approvals can be completed.
    As you are aware, current guidelines from the Federal 
Highway Administration prevent States from making NEPA approval 
decisions on projects that are not included in a statewide or 
metro transportation plan. In most cases, Federal funding 
cannot be used to complete the NEPA review of the project, 
which places an increased burden on State and local planning 
agencies.
    Arizona has a number of large transportation projects, 
which are preparing for costly tier two environmental impact 
statement assessments, including a project to expand highway I-
10 between Phoenix and Tucson. There is another project called 
the Sonoran Corridor Project in Tucson. And the I-11 Project 
which could finally, and this is a big deal, finally connect 
Phoenix and Las Vegas via an interstate highway.
    These projects, and projects like them throughout the 
country, deserve to have thorough environmental reviews that 
allow affected communities with the opportunity to provide some 
feedback. Yet cost constraints and requirements that States and 
localities fully fund these reviews slows the process of 
getting these projects off the ground. That delays efforts to 
make infrastructure upgrades needed in Arizona and across the 
country.
    So, Commissioner Sheehan, as this Committee considers 
surface transit reauthorization legislation, what steps can we 
take now to ensure transportation planners have the resources 
and flexibilities to produce high quality, timely, and accurate 
environmental reviews while preventing delays to the overall 
transportation planning process?
    Ms. Sheehan. First and foremost, providing adequate 
funding. If these projects have that dedicated stream of 
funding, then it is much easier to move them forward. So making 
sure that we have the resources so these projects can be 
included in our long term transportation plans, and that 
everyone understands they are truly priorities to our States.
    Beyond that, I believe we are up to eight States that 
currently have taken ownership of NEPA reviews. This provides 
them the opportunity to significantly streamline the delivery 
of their projects. As an example, I think California was the 
first State to pursue this. They are taking on that liability 
of ensuring their projects are in full compliance with all 
Federal regulations.
    But in return for that, it expedites the advancement of 
those projects because we are not submitting documents to other 
agencies for their review and feedback. We are ensuring full 
compliance internally at our respective State DOTs. So 
continuing to advocate for those types of changes, where the 
States who are willing to can step up and take on more 
responsibility, but in no way circumvent or fail to meet their 
environmental commitments and obligations.
    Senator Kelly. Commissioner, is New Hampshire one of those 
eight States?
    Ms. Sheehan. We have not moved in that direction as of yet, 
but it is certainly something that we are exploring, seeing the 
tremendous success across the rest of the country.
    Senator Kelly. Thank you, that is very helpful.
    Mr. Chairman, you were mentioning songs earlier, and I 
think the appropriate song might be the Rascal Flatts' Life Is 
a Highway. Appropriate today. I yield back the remainder of my 
time.
    Senator Carper. All right. It is always great to hear the 
Rascal Flatts; that is good.
    All right, Alex, Senator Padilla, our new member from 
California. Welcome.
    Senator Padilla. Thank you, Mr. Chairman. Does this make me 
the clean up hitter?
    Senator Carper. It does, you know.
    Senator Padilla. Thank you for the welcome to the 
Committee. I am eager. There is a lot of great work to be done 
this session.
    I have two related topics I want to touch on, so if I may, 
Mr. Chair, I will get through both questions, and acknowledge 
who they are addressed to, and then sit back and hear the 
answers for both.
    First, on the topic of resiliency and disaster 
preparedness. It is not just California's recent record 
wildfire seasons, plural, not in a good way, of course, but 
severe flooding across various parts of the country, to recent 
events in Texas. We have seen in recent years how the climate 
crisis is leading to more dangerous and more numerous natural 
disasters. As we work to address this reality, we must improve 
the resiliency of our roads, our bridges, and our 
infrastructure at large to adapt to and recover from extreme 
weather events.
    I know Governor Whitmer is no longer with us, but she in 
her written testimony spoke to many of the roads that were 
washed out due to recent floods in Michigan.
    So let me just address this question, then, to Commissioner 
Sheehan, who also mentioned in her written testimony how the 
Department uses Federal dollars to carry out a significant 
number of resiliency projects.
    I understand that AASHTO has supported recent efforts by 
this Committee to improve system resiliency, including by 
expanding project eligibility for the National Highway 
Performance Program, the Surface Transportation Block Grant 
Program, and the Emergency Relief Program.
    I would love for the Commissioner to touch on the 
importance of resiliency projects for planning, and what steps 
this Committee can take in the upcoming reauthorization bill to 
support States' efforts to improve resiliency in transportation 
systems.
    The other question, more related than you may think, is for 
Mayor Hancock. While the National Highway System connects 
cities and facilitates economic activity across the Nation, its 
construction historically has been deeply destructive for many 
communities, particularly lower income communities and 
communities of color. The construction of highways through some 
neighborhoods has caused a displacement of predominately 
minority residents, and in many cases, fosters isolation from 
opportunity, heightened exposure to pollution, and chronic 
disinvestment.
    Mayor Hancock, in his written testimony spoke to concerns 
about equity, and equity considerations going into planning 
efforts, and specific examples of not just Denver's experience 
in the past, but how Denver is now working in partnership with 
the State of Colorado to reconnect communities in the 
reconstruction of Interstate 70, which bisects the city.
    So I would love for the mayor to speak to how this can 
serve as a model for reconnecting communities in other cities 
across the country, and once again, how the Federal Government 
can play a bigger role in supporting projects that mitigate the 
detrimental impact of highways on historically disenfranchised 
communities.
    Thank you both.
    Ms. Sheehan. Thank you for the question, Senator. As part 
of the development of our transportation asset management 
plans, State DOTs are required to do a risk and hazard 
analysis. Many of us have been working to build out our GIS 
information.
    We have significant storm events in our States. We are 
mapping exactly which locations on our transportation system 
are impacted by those events and making sure that in the 
future, as we are advancing improvements in those locations, we 
are incorporating resiliency and ensuring that the impacts from 
prior storms are not allowed to occur in the future.
    So we have really integrated resiliency into every aspect 
of work that we do. From day one when we are scoping a project, 
we are looking at that history of where we have seen 
significant impacts, especially from flooding, either in 
coastal areas or inland, when we have significant rain events, 
and making sure that we build it back better.
    Senator Padilla. Thank you, Commissioner.
    Mr. Mayor.
    Mr. Hancock. Senator, with regard to your question around 
the I-70 Project and of course the issues of equity, it was 
when the city of Denver got involved in this conversation about 
the I-70 Project that we were able to bring to light the values 
of equity. This highway was placed, as you pointed out, in a 
primarily minority, low income community, dividing the 
community, creating barriers and lack of investment for the 
foregone future. We had some options available, but none that 
were, quite frankly, feasible in going forward.
    So there were a few things that the city of Denver brought 
forward as a municipality who understood the challenges that 
this community faced, as well as the historical actions of 
environmental injustice. One was community engagement. The FHWA 
said this was probably the [indiscernible] model effort around 
community engagement that they have ever seen. We are proud of 
that. Between engaging the community and hearing the voices of 
the people who live there, but also understand the history was 
very important.
    Empowering the local government to engage, the State 
Department of Transportation really helped us by allowing us, 
opening the door for us to be involved, we can bring forward 
the issues of equity and opportunity. Connecting roads in that 
community that would help provide new life and opportunities 
was also increasingly important as we moved in, as well as 
amenities. These were underserved communities, they didn't have 
access to parks. As part of this highway project, we lowered 
it, and we are capping it with a new park for the community 
that everyone can enjoy.
    We have also built in some remedies to some of the 
environmental challenges, including pollution, but also 
flooding, helping to remedy the historic flooding in these 
neighborhoods in a project called Plot to Park. We merged two 
very important but very expensive infrastructure programs, 
including this project, to alleviate the flooding of these 
neighborhoods that has been happening for hundreds of years and 
make it more, quite frankly, improve the quality of life for 
residents in the area.
    So the Plot to Park Program was extremely important. Making 
sure that you are engaging municipalities, we have, again, a 
better understanding of the residents, the challenges of 
equity, the environmental injustices that have occurred, and 
creating opportunities around connectivity and renewed 
opportunities of investment was critically important on the I-
70 Project.
    Senator Padilla. Thank you both.
    Thank you, Mr. Chair.
    Senator Carper. Senator Padilla, thank you for some great 
questions.
    I am going to yield now to Senator Capito, and she will 
give some closing statements, and then hand the gavel back to 
me.
    Senator Capito. Thank you, Mr. Chairman. I want to thank 
our witnesses. I thought they were tremendous and gave us great 
insight and a broad understanding of how many of these programs 
impact their communities, their States, and I appreciate it, I 
know it is been a little bit lengthy for some.
    I also would like to call attention to the fact that we had 
almost unanimous membership here in our Committee asking 
questions and engaging in this issue. I think if you close your 
eyes and didn't know who was asking the questions or from what 
party that person might be from, I think you see that there is 
a solidarity of interest and a grand desire to really get 
something done together in the surface transportation 
infrastructure area.
    The variety of questions, whether it is formula funding or 
electric vehicles or bridge repair, or kind of cuts across 
every single State, we know that. Every State has more urban 
areas and lots of rural areas. So I think that the perspectives 
that all of our members have given us show the great interest 
that we all have in making sure that our States' needs are 
addressed.
    I said in my beginning statement that flexibility was going 
to be very important. I think the Governors backed me up on 
that. One size fits all doesn't work for Denver, it won't work 
for Maryland, it might not work for West Virginia, and so the 
flexibility built into the program is really critical.
    One of the areas that I think we had good agreement on is 
the speed to projects, the delivery of the actual project. I 
talked in my opening statements about the 7 year timeline, and 
how that is costly and may result in obviously fewer jobs, but 
also maybe incomplete projects or projects that are only 
partially able to be completed, and therefore not as useful and 
not as critical to the infrastructure development of our 
individual States.
    Certainty is something that we have all asked for, and that 
would be the predictability of a lengthy bill, 5 or 6 year 
bill, which I think provides the certainty that many folks 
talked about.
    Innovation was a huge topic. We heard a lot about electric 
vehicles, charging stations, which we had in our bill, we had 
the first climate chapter ever in a highway bill that we passed 
21 to nothing.
    We are very much committed to that on a bipartisan basis, 
and we want to make sure that it is in the best interest of 
everybody for the environmental reasons as well as the 
infrastructure development reasons.
    I will say that we did hear a lot about--I thought it was 
interesting to hear from the different topics about electric, 
and when you are talking about electric vehicle charging 
stations, how that different municipalities and States are not 
waiting for the Federal Government to fill the gap.
    I am sure that there are ways that we can help, but at the 
same time, we need to be relying on the resources that are 
available on the local and State level. They are ready to 
commit resources, and have. Certainly from the private sector, 
we don't want to displace that commitment, I don't think, with 
a Federal commitment. We are going to have enough on our plate 
without co-opting where our States and municipalities are 
already willing to go with the private sector.
    So I would say with all the electric vehicles that are 
being projected to be on our roads, the main thing is, we have 
to have safe highways, we have to have modernized highways, we 
have to have bridges that are safe. We have to go back to the 
core function of a surface transportation bill, not to say we 
are not going to build transportation for the future, because 
we will.
    But we have to have--it is almost like the food and water 
aspects of our lives. There are basic things that we have to 
have as we move toward different parts of our society in 
different ways. Certainly, our job, I see, with all of the 
great things that we see in our future, we still have that core 
function. That is where I think you saw a lot of interest from 
our Committee.
    So I think you did a great job, Mr. Chairman, with great 
witnesses, and I am glad to participate. I want to thank my 
staff; they got us all prepared, and your staff as well. We are 
working well together; let's keep it up.
    He wants the gavel back, all right. Thank you.
    Senator Carper. Thanks for sharing.
    In closing, I want to just follow up, it is been just a 
great hearing. What a great hearing to start off our new 
Congress.
    I think we have had all but two of our members who were 
able to participate, which is terrific attendance. I know that 
everybody has other committees and other hearings that they are 
trying to get to. So thanks to our colleagues, and a warm 
welcome to our new colleagues who were here today.
    I want to say a special thanks to our staffs. I used to 
admire the way Max Baucus and Chuck Grassley worked together in 
the Finance Committee. They initially started by meeting, just 
the two of them would meet maybe once a week. Then over time, 
they would have another, like a chief of staff of something 
like that with them. But eventually, you could walk into a 
meeting between their two staffs, Max Baucus, a Democrat, Chuck 
Grassley, a Republican, on the Finance Committee, the two 
leads, and if you didn't know who was working for who, you 
wouldn't know.
    I think that is a good goal for us, and I am encouraged 
that we are going to have some terrific collaboration.
    I want to thank our witnesses. What a lineup.
    Staffs, thank you for bringing together four terrific 
witnesses.
    We are deeply grateful to the Governors, Governor Hogan, 
our neighbor not far away in Maryland, and Governor Whitmer, 
who is the Governor of my favorite baseball team, the Tigers, 
and Mayor Hancock from Denver, and Commissioner Sheehan up in 
New Hampshire. You all did a wonderful job, and we appreciate 
your joining us virtually.
    I want to just say one thing, maybe one or two things in 
closing. We are so lucky to be here. We are so lucky to serve 
on this Committee.
    I like to quote Einstein, and Einstein used to say, ``In 
adversity lies opportunity.'' Plenty of adversity, I talked 
about it when we began the hearing, but there is also 
opportunity here. If we are smart about it, and we find ways to 
collaborate and work together, we are going to rise to the 
occasion. I am hopeful and encouraged that we will. The 
American people are counting on us.
    I said earlier, at the beginning of the hearing about the 
train, Union Station, I walked up to the Capitol, the sun was 
out, it was so beautiful. The skies were blue, the sunshine 
over the Capitol. It felt like morning in America again. That 
is a good note for us to close on.
    I have a couple of unanimous consent requests. I would ask 
unanimous consent to submit for the record a number of letters 
from associations focused on safety, electric charging, 
construction jobs, technology, and others. They are all eager 
to see Congress get to work on infrastructure for the benefit 
of all the American people, and so are we.
    One other one, there has been a fair amount of discussion, 
and rightly so, on delay. We have included streamlining 
provisions in every reauthorization bill in the last 30 years. 
I know every one that I had a chance to work on. We also need 
to recognize the delays that are caused by funding shortfalls; 
that is something we can do something about, and we need to.
    I want to ask unanimous consent to submit for the record a 
report from AECOM, a consulting firm that looked at 40 major 
infrastructure projects and found that a major challenge to 39 
out of 40 was inadequate funding, not completion of 
environmental reviews, so let's keep that in mind.
    I hope our next bill will encourage innovative project 
delivery and also address our funding shortfalls. We need to do 
both.
    [The referenced information follows:]
    [GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Senator Carper. Let me just ask the receptionist, anything 
else that we need? No.
    All right, I think we are ready for takeoff. It was a good 
day.
    Thanks, everyone.
    And now with that, the hearing is concluded.
    [Whereupon, at 12:50 p.m., the hearing was adjourned.]

                       [all]
</pre></body></html>
